<html>
<title> - INTERNATIONAL WORKER RIGHTS, U.S. FOREIGN POLICY AND THE INTERNATIONAL ECONOMY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
INTERNATIONAL WORKER RIGHTS, U.S. FOREIGN POLICY AND THE INTERNATIONAL 
                                ECONOMY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                AND THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

                           Serial No. 111-89

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
55-396                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida
               Don MacDonald, Subcommittee Staff Director
          John Brodtke, Subcommittee Professional Staff Member
            Tom Sheehy, Republican Professional Staff Member
             Isidro Mariscal, Subcommittee Staff Associate

                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
              Jerry Haldeman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michael H. Posner, Assistant Secretary, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State....     7
Ms. Sandra Polaski, Deputy Under Secretary for International 
  Affairs, U.S. Department of Labor..............................    15
Mr. William Lucy, Chair, Executive Council Committee on 
  International Affairs, American Federation of Labor and 
  Congress of Industrial Organizations (AFL-CIO).................    36
Bama Athreya, Ph.D., Executive Director, International Labor 
  Rights Forum...................................................    50
Mr. John G. Murphy, Vice President of International Affairs, U.S. 
  Chamber of Commerce............................................    63

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michael H. Posner: Prepared statement..............    10
Ms. Sandra Polaski: Prepared statement...........................    18
Mr. William Lucy: Prepared statement.............................    39
Bama Athreya, Ph.D.: Prepared statement..........................    53
Mr. John G. Murphy: Prepared statement...........................    65

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    90
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................    91
The Honorable the Honorable Brad Sherman, a Representative in 
  Congress from the State of California, and Chairman, 
  Subcommittee on Terrorism, Nonproliferation and Trade: 
  Statement by Susan Reichle, Acting Assistant Administrator, 
  Bureau for Democracy, Conflict and Humanitarian Assistance, 
  U.S. Agency for International Development......................    93


INTERNATIONAL WORKER RIGHTS, U.S. FOREIGN POLICY AND THE INTERNATIONAL 
                                ECONOMY

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

      House of Representatives,            
             Subcommittee on Terrorism,            
             Nonproliferation and Trade and        
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:55 p.m. in 
room 2175, Rayburn House Office Building, Hon. Russ Carnahan, 
(chairman of the subcommittee) presiding.
    Mr. Carnahan. I would like to call to order this joint 
subcommittee hearing of the Subcommittee on Terrorism, 
Nonproliferation and Trade chaired by Brad Sherman of 
California, and the Subcommittee on International 
Organizations, Human Rights and Oversight chaired by myself. I 
see Mr. Royce joining us and just apologize at the onset here. 
We had some votes and other hearings that delayed us, so thank 
you for your patience in getting started.
    First, I think this is an important subject that we are 
addressing here today, International Workers Rights, U.S. 
Foreign Policy and the International Economy. We have I think 
two excellent panels today that can provide us some very good 
insight, and we will be looking forward to your remarks and 
also being able to ask you questions. First panel, I would like 
to welcome Sandra Polaski. She is the deputy under secretary 
for international affairs at the Department of Labor.
    Ms. Polaski served during the Clinton and Bush 
administrations as U.S. Secretary of State's Special 
Representative for International Labor Affairs where she was 
responsible for incorporating labor and livelihood issues into 
U.S. foreign policy. Next, I would also like to welcome Michael 
Posner, assistant secretary of state for the Bureau of 
Democracy, Human Rights and Labor. Prior to joining the State 
Department, Mr. Posner was the executive director and then 
president of Humans Rights First, a non-profit, non-partisan 
internal human rights organization.
    Welcome to you both, and we will begin with some opening 
statements, and I will kick this off as we also wait for 
Chairman Sherman. I want to thank Chairman Sherman for leading 
this hearing today and all the witnesses for donating their 
time on this critical issue of international workers rights and 
U.S. foreign policy and the international economy. In the wake 
of the unprecedented financial and economic crisis, 
coordinating a speedy recovery and creating sustainable job 
opportunities has been a matter of the utmost concern for 
Members of Congress since 2007.
    The countless stories of hardworking American citizens 
struggling during these difficult times are troubling and 
painful, and they deserve our sincere and focused attention. 
Additionally, the millions of jobs lost globally threaten to 
precipitate a dangerous race to the bottom in labor standards 
in which quality employment opportunities have also suffered. 
The speed to cycle of declining living standards, diminishing 
purchasing power, increasingly shrinking markets and further 
economic decline. The administration, Congress and many others 
are doing much to turn this around.
    As part of this process, we have taken many measures to 
address our national economic recovery. We must also look 
beyond our borders and increase our efforts to coordinate 
significant policy reforms worldwide that will yield concrete 
benefits to Americans at home by strengthening U.S. trade 
agreements and trade preferences. Despite these favorable trade 
relationships, countries still have not consistently adhered to 
agreed upon labor provisions, and U.S. agencies have been lax 
in enforcing them.
    This ultimately undermines the American worker, undermines 
potential for economic growth and undermines the respect for 
basic human rights. From Toyota vehicles to Chinese drywall and 
children's toys, I also remain concerned about the lack of 
product safety and enforcement in our trade relationships. This 
gives unfair market advantage that may end up harming American 
consumers and that is simply unacceptable and unsustainable.
    This April, Secretary Solis will host the first G-20 
Employment and Labor Ministers' meeting here in Washington in 
an effort to pool individual experiences and try to coordinate 
a collective policy to restore the global economy. I believe 
this is a vital step with potential to further enhance 
America's leadership on economic recovery efforts. It is my 
hope that the meeting will give serious focus to job creation 
in line with more robust labor rights, protection and 
transparency.
    This year I launched the bipartisan American Engagement 
Caucus, and last week hosted a congressional briefing on 
America's image abroad. I believe it is also important for 
America to continue to be a leader in promoting workers rights, 
advancing labor standards to foment healthy economies and 
prosperous societies moving forward. It is imperative that we 
act now to level the playing field so that everyone can have 
access to quality sustainable work opportunities and 
participate fully in the global economy helping to strengthen 
and expand it.
    This will provide tangible, immediate benefits to our 
domestic economies as well, ensuring strong markets for our 
exports and giving power back to workers and consumers. As we 
work to revitalize the American economy and create jobs here, 
we must aggressively seek new opportunities for U.S. companies 
to gain fair access to foreign markets. A critical component to 
that effort is rigorous enforcement of international trade laws 
and safety standards and to help level the playing field for 
American workers and protect human rights around the world. 
Once again, I thank our witnesses, and I want to ask Ranking 
Member Royce to provide an opening statement as well.
    Mr. Royce. Thank you, Mr. Chairman. I chaired the Africa 
Subcommittee, and I was part of the bipartisan group that 
authored and pressed and finally passed the Africa Trade Bill. 
That bill has created desperately needed jobs on that 
continent. I have toured apparel factories with other members 
of this House in a number of African countries talking to 
Africans with new jobs--jobs that are paying women to feed, 
clothe, and educate their children--jobs that would not exist 
without liberalization of trade.
    I am concerned about well-being abroad, but of greater 
concern frankly to me is our economy, our own well-being here, 
and unfortunately, some use the issue of international labor 
rights to stymie attempts to lower the high barriers many U.S. 
goods and services face overseas. This makes American workers 
less competitive. Consider the trade agreement with Korea, 
which the Democrat congressional leadership and a timid 
administration has deep freezed.
    KORUS promises to increase trade with South Korea by $10 
billion a year. As a witness notes today, 40 percent of the 
U.S. private sector today exports overseas, so KORUS is an 
American job opportunity that is being lost, a stimulus that is 
wasting, but it gets worse. While we are frozen, others are 
pouncing. We will hear that the United States could lose more 
than 380,000 jobs and $40 billion in export sales if the Korea 
and Colombian trade deals languish.
    Why would that be? Because the EU and Canada are making 
deals with these countries. National security gets compromised. 
The epicenters of terrorism are Afghanistan and Pakistan. We 
have troops in the field. The Islamist terrorism gains if these 
economies fail, yet the House so weakened a limited 
Afghanistan/Pakistan trade proposal, including the labor 
provisions that exceed our own in this country, that it died in 
the Senate. So there was no economic boost for this critical 
region.
    Some working conditions are truly horrible. It wouldn't 
bother me if Americans never bought another Chinese made toy. 
Labor provisions are important. The Africa Trade Law, which I 
co-authored, includes them, so do other preference programs and 
trade agreements. In some cases, they need to be wielded 
better, but in 2007, a bipartisan agreement paved the way for 
approving trade agreements. That was for Peru, and that was it, 
and we were done--nothing since. Our competitors are laughing. 
Stopping liberalization isn't going to help.
    Are Colombian workers better off without the Colombian 
trade deal? I don't think so. American workers absolutely 
aren't better off without this deal. As much as some would try 
to legislate prosperity overseas, there are limits to what we 
can achieve--political, practical and economic limits. To those 
demanding ever more stringent labor standards, when are they 
good enough to trade? The American workers who depend on 
exports want to know. Thank you, and I yield back, Mr. 
Chairman.
    Mr. Carnahan. Thank you, and next I want to recognize Mr. 
Scott for an opening statement.
    Mr. Scott. Thank you, Chairman Carnahan, and it is a 
pleasure to be here with you and both of our committees in 
joining in on this very timely important issue, and I certainly 
want to welcome all of our distinguished panelists. The topic 
of today's hearing is of particular importance as the United 
States and our trade partners march forward in economic 
recovery and growth. The encouragement of economic development 
and the job growth that development brings are issues that I am 
keenly interested in, and so I thank you once again for 
providing a forum for these issues.
    Our two subcommittees must approach today's topic with a 
recognition of the delicate balance necessary to best promote 
American interests abroad, and I think that those are the two 
key words as we move forward, delicate balance. We have got to 
promote a trade policy that encourages the responsible growth 
of American business at home and abroad, but never at the 
expense of our national security nor in the face of egregious 
and appalling human rights violations abroad, that is the 
balance, nor at the cost of the American worker here at home.
    As the global markets recover and rebuild, we are presented 
with the fortuitous opportunity of recognizing the mistakes of 
the past and strengthening America's status as the prime engine 
of global economic development. We recognize our past 
leadership in the world and global economic development, and we 
recognize the future and that we must maintain our status as 
the world's leader. We must encourage a rising tide where 
economic growth coincides with increased living standards and 
greater democratization. We must eliminate technical barriers 
to trade and tariffs on U.S. goods.
    We must protect intellectual property rights as well as the 
rights of labor. Quite frankly, nowhere is there a greater 
example of this delicate balance that we must maintain that in 
the situation facing us in Colombia. There are so many right 
reasons that we really need to strengthen our trade 
partnerships with Colombia, but there is a problem of human 
rights in Colombia and especially the violation of labor rights 
and relationships with labor unions where there has been over 
the past several years a very serious pattern of violence and 
assassination of labor leaders.
    Mr. Chairman, with that, I will yield back the balance of 
my time, and I hope that we can arrive at a very good 
discussion of how we move forward while at the same time 
understanding this delicate balance that our leadership must 
envelope.
    Mr. Carnahan. Thank you, Mr. Scott, and next I want to go 
to the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me just identify myself with the remarks of my colleague about 
his concerns about Colombia. However, let me add to that that 
the human rights problems of Colombia are minuscule as compared 
to those in Vietnam where we are rushing forward to try to help 
them develop their manufacturing base or in China, China. My 
gosh, the world's worst human rights abuser, and yet a country 
whose policies we have permitted to be in place even while we 
gave them most favored nation status.
    Let me note that we are now at home in a horrible situation 
where our people can't find work, where our people are being 
put out of their jobs, and I trace this right back to many 
different policies, but one of the most significant policies is 
that we have had a one-way free trade policy with the world's 
worst human rights abuser, and let me note that Nancy Pelosi, 
Barney Frank, Jesse Helms, Dana Rohrabacher, yours truly, Chris 
Cox, Chris Smith, Ben Gillman, Gerry Solomon all are people who 
fought most favored nation status and said it was going to lead 
to serious economic consequences for the United States and for 
working people here, and that is exactly what has happened.
    Of course, we were told well, if we just had most favored 
nation status, and we put all our investment there, and we let 
them use our technology that pretty soon there is going to be a 
liberalization, and China will no longer be a dictatorship as 
it is. I call that the hug-a-Nazi-make-a-liberal theory, and it 
didn't work. China is just as dictatorial today. Actually, it 
is more dictatorial today than it was 25 years ago, and yet we 
have built up their economy, and what we have done is created a 
Frankenstein monster, and to the subject at hand today, how do 
they treat their labor force?
    I mean, the fact is that people over there who work over 
there have no more rights in terms of their economic rights as 
they do political rights. They live in a society controlled by 
a dictatorial clique, and if you get in their way, you 
disappear. People have tried organize unions, et cetera and try 
to uplift at least the working conditions of their people, find 
themselves what? With none of the freedoms that we say are so 
important here, so why are we granting that country most 
favored nation status, or as happened during the Clinton 
administration, permanent most favored nation status, and we 
are trying to push for the whole WTO thing.
    Well, with that said, Mr. Chairman, we need some serious 
talk about our China policy. I believe it is contributing 
basically to the downfall of the standard of living of the 
American people, and here is where again freedom and our 
commitment to freedom and liberty and justice has very serious 
consequences to the well-being of our country, and our people 
as I say are being put out of work. You go to the store, and 
you can't buy anything that is not made in China, and you 
realize that the people in China, if somebody sticks their head 
up to complain, it is chopped off.
    We need to make sure that we look at this in a serious way. 
I want to congratulate Brad Sherman, who I know is paying close 
attention to this issue in his own subcommittee, and I look 
forward to working together with you, Mr. Chairman, and with 
Chairman Sherman, and maybe hopefully having a positive impact 
on this intolerable situation with Communist China. Thank you.
    Mr. Carnahan. Thank you, Mr. Rohrabacher, and now I want to 
turn it over to Chairman Sherman for his opening remarks.
    Mr. Sherman. Thank you. In quick response to the gentleman 
from California, you asked why did we provide most favored 
nation status on a permanent basis to China. It is in the 
interest of Wall Street. It is in the interest of Wal-Mart. 
That is why we did it. Good to see Mike Posner again, and I 
want to apologize to both witnesses for me being late. Our 
caucus had a suddenly-called meeting on an issue very important 
to me and my district, and I thought I had to be there for at 
least part of it.
    Now turning to the hearing, the United States has a long 
history of supporting and strengthening labor rights. What I 
find troubling is that the U.S., in too many cases, has fallen 
short of its responsibility to be a global leader in protecting 
these fundamental human rights. For example, the International 
Labor Organization has adopted eight core conventions 
enshrining the most fundamental labor rights. These embody 
universally shared beliefs including eliminating the worst 
forms of child labor, granting freedom of association and 
protecting the right to organize.
    Unfortunately, America is one of only six nations that has 
ratified two or fewer of these core conventions. The U.S. 
position is particularly confusing given that these conventions 
were ratified by virtually every nation in the world. 
Currently, Convention 111 eliminating employment discrimination 
sits before the Senate awaiting ratification. This convention 
has passed review by the Bush administration and 
representatives from Labor and Business, and I would hope the 
Senate would move forward.
    Of particular trouble to me is our right-to-work laws in 
roughly half of our states. This is an abomination in a country 
that claims to support internationally the right to organize 
and core labor standards. We should take significant steps to 
improve our own labor laws. These right-to-work laws are, in 
effect, a prohibition on effective organizing. They are 
harmful. They are harmful to the states involved. They are also 
harmful to states like my own, which allow labor unions to 
organize, because now we have to compete with the race to the 
bottom as our companies have to compete with those where the 
workers would like better wages, working conditions and 
benefits but are unable to organize to get them.
    According to the American Enterprise Institute, the reason 
that many key ILO conventions have not been ratified is the 
fear that some U.S. labor laws, particularly the right-to-work 
laws, would be found to violate international labor standards 
that have been accepted by the civilized world for close to 100 
years.
    Now turning to Latin America. When we are looking at 
countries that are seeking trade privileges or seeking foreign 
aid, we can do more to assure reasonable conditions for labor.
    One example is the Dominican Republic and the Central 
American Free Trade Agreement, which went into law in 2005. 
Then President Bush said the agreement would promote democratic 
governance, human rights and economic liberty for everyone. 
However, in June 2009, the Washington Office on Latin America 
published a report which revealed that labor conditions in 
CAFTA countries have not improved and violations have not 
diminished regardless of promises made by member countries to 
improve labor rights and millions of dollars invested by the 
United States to meet this objective.
    I am particularly concerned with one example of this lack 
of progress, and that is the murder of trade unionists in 
Guatemala. Unions report the murder of 40 unionists between 
2007 and 2009. One such case is that of Pedro Zamora. In 2007, 
Mr. Zamora was ambushed and shot 20 times in the midst of 
contentious negotiations with the company. This man, his family 
and the workers he died representing have yet to receive 
justice.
    Indeed, the authorities have apprehended and tried only one 
person linked to the crime. However, that person was acquitted 
for still unknown reasons last year. It is unclear whether the 
government will appeal that acquittal and whether they will 
continue to search for others responsible for the murder or 
whether it is all a white-wash. The situation in Colombia is 
worse. Over 500 union members have been brutally murdered 
during Mr. Uribe's presidency, and many more have received 
death threats against them or their family. This violence has a 
profound chilling effect on the ability of workers to exercise 
their rights. Far too few have been arrested and convicted for 
these crimes. In 2009, the rate of impunity remained well over 
90 percent.
    Turning to Southeast Asia and the Middle East. Labor rights 
violations are not limited to one particular country in the 
world. They are just a handful of trading partners. Looking at 
Southeast Asia and Thailand alone, Human Rights Watch recently 
reported widespread and severe human rights abuses faced by 
workers including killing, torture in detention, sexual abuse 
and labor rights abuses such as trafficking, forced labor and 
restrictions on organizing.
    Some of the most glaring examples come from the Middle 
East. For example, the State Department Annual Trafficking and 
Persons Report found that many immigrants from South Asia who 
moved to Oman to work as domestic servants or low-skilled 
workers find themselves in conditions indicative of involuntary 
servitude, such as withholding of passports and other 
restrictions on movement, nonpayment of wages, long hours 
without rest or food, threats, physical and sexual abuse.
    These are conditions that no one finds acceptable. I want 
to work with my colleagues and with the administration in 
focusing on these abuses. The State Department will release its 
annual country reports on human rights. I believe that is 
tomorrow, and I know Mr. Posner's staff has been working, if 
not around the clock, at least long hours on that report, so I 
am particularly interested to learn whether, and how, our 
foreign assistance programs, including the Millennium Challenge 
Corporation, are working in the best interests of workers at 
home and abroad.
    This is an opportunity to see what steps can be taken to 
improve labor rights standards tied to our trade policy, 
including the standards in the free trade agreements or the 
Generalized System of Preferences which provide preferential, 
duty-free entry for thousands of products from over 100 
beneficiary countries and territories. Given the troubling 
labor rights abuses that persist around the globe, I look 
forward to the opportunity to hear from the witnesses and would 
also like their comment on the degree to which American laws, 
particularly right-to-work laws, violate internationally-
accepted labor standards. Thank you for the time. I yield back.
    Mr. Carnahan. Thank you, Chairman Sherman. Now I want to 
turn to our first panel starting with Michael Posner, assistant 
secretary, Bureau of Democracy, Human Rights and Labor.

    STATEMENT OF THE HONORABLE MICHAEL H. POSNER, ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. 
                      DEPARTMENT OF STATE

    Mr. Posner. Thank you, Chairman Carnahan, Chairman Sherman, 
other members of the subcommittees. Thanks for holding this 
hearing and for inviting me to testify. I am going to ask that 
my written comments be submitted to the record.
    Mr. Carnahan. Without objection.
    Mr. Posner. As Chairman Sherman mentioned, tomorrow we are 
releasing our annual country reports on human rights practices. 
In each of the 194 country chapters, there is sections on 
workers rights providing a detailed look at these issues in the 
countries you have talked about, China and Vietnam and 
Colombia, Guatemala and others. While there are some positive 
trends we see, there also are far too many countries where 
workers are suffering abuses in various of forms of 
discrimination.
    I list a number in my testimony, but to give an example, in 
Uzbekistan, authorities continue to compel children to harvest 
cotton for export. In countries like China and Iran and Cuba 
and other places, labor activists continue to risk being fired 
or blacklisted even in prison, and as several of you have 
mentioned in places like Colombia and Guatemala, labor 
activists continue to be targeted for violence and even death.
    Throughout the world, dangerous working conditions remain 
all too common. There was a fire last month in an apparel 
factory in Bangladesh that took the lives of 26 workers, mostly 
women. The global economic downturn has thrown millions of 
people out of work, destroyed savings and forced millions to 
migrate. The burden of this global downturn has fallen most 
heavily on the world's most vulnerable workers. That is what we 
are doing here today to describe ways in which we can address 
their plight.
    Women comprise the majority of victims of forced labor and 
abuse in sweat shops. Domestic workers are particularly 
vulnerable, and although we have seen some progress on child 
labor in places like Brazil, the worst forms of child labor 
continue to darken the future of tens of millions of children 
around the world. I want to just take the few minutes I have 
here to talk about a few things that we are trying to do in 
this administration. Our efforts to address these challenges 
fall into three broad categories.
    The first is labor diplomacy, which I think is a key. Every 
day we work to advance labor rights by talking directly and 
frankly with other governments. We raise our concerns on a 
broad range of issues, and we do so through our diplomats but 
also through 40 labor-designated positions in the foreign 
service. We are focused now on reviewing their role and their 
responsibilities. We are also working with the foreign service 
institute to provide enhanced training and guidance.
    We have increased our training options, and we are working 
very closely with the Department of Labor and my terrific 
colleague Sandra Polaski on this. The second thing that we do 
is to provide technical assistance. Beginning in the 1990s 
under the partnership to eliminate sweat shops, we have been 
spending a growing percentage of our time and money in the 
Bureau of Democracy, Rights and Labor to address these issues 
through programs where we provide training. We provide legal 
representation.
    We improve multi-stakeholder engagements, and we work to 
protect vulnerable workers. We now have about $26 million a 
year in various programs around the world, and again in my 
testimony, I list some of those. In recent years, the trade 
agenda also has created opportunities. I am sure we are going 
to get into that in some of the questions, but in the CAFTA 
countries, places like Jordan, Bangladesh, there are 
opportunities to push within the context of trade agreements 
for greater protection of rights.
    The third area, a broad area where we are working and 
continue to work and expand our work is in building 
partnerships and broader engagement. We can't do this alone in 
the State Department or the Labor Department. It is critical 
that we involve other Federal agencies and that we work with 
others outside of government. The ILO, for example, is a 
terrific partner, and we are pushing for strong action with 
them on the worst abusers of workers rights including child 
labor and forced labor.
    We are working to strengthen American participation in the 
OECD guidelines and multinational enterprises, and we are 
working with John Ruggie, who is the U.N. Special 
Representative on Human Rights and Transnational Corporations. 
It is important that the government also seek to push notions 
of corporate social responsibility. Let me close by saying that 
we are committed to working with Congress. We are committed to 
making these priorities for this administration, and we eagerly 
await your questions. Thank you very much.
    [The prepared statement of Mr. Posner 
follows:]<greek-l>Michael Posner deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, Mr. Posner, and next I want to go 
to Deputy Under Secretary Polaski.

  STATEMENT OF MS. SANDRA POLASKI, DEPUTY UNDER SECRETARY FOR 
        INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF LABOR

    Ms. Polaski. Good afternoon, Mr. Carnahan and Mr. Scott. On 
behalf of the Department of Labor and Secretary Hilda Solis, I 
thank you for this opportunity to discuss the role of labor 
issues in the Obama administration's global agenda. I have also 
submitted more extensive written comments, and I ask that they 
be submitted to the record.
    Mr. Carnahan. Without objection.
    Ms. Polaski. Thank you, and I am also pleased to share this 
panel with Assistant Secretary Posner. As he said, we work 
closely together, and I think his vision for the State 
Department and mine for the Labor Department in the 
international labor realm strongly compliment each other. 
Secretary Solis' vision is that we work to provide ``Good Jobs 
for Everyone.'' When she launched this slogan and this mission 
for the Department of Labor, one can think very quickly about 
its impact in terms of the domestic U.S. economy, but this is 
also a very important part of our agenda internationally as 
well as domestically.
    To provide prosperity and jobs here at home, we need a 
sound and balanced global economy, one in which workers 
everywhere are able to share in the benefits of economic 
growth. If workers in developing countries don't earn 
sustainable wages, if they don't earn enough to buy the goods 
that they produce, they won't earn enough to buy the goods that 
we produce, and we will see a repeat of the imbalances in the 
global economy that were partially the cause for the current 
economic crisis.
    The crisis has also made it more urgent that we attend to 
labor rights internationally because I think as Chairman 
Carnahan indicated in his opening remarks, when there is large 
unemployment, the bargaining power of labor goes down, and 
workers become more vulnerable to the most extreme forms of 
exploitation, including some of those that Mike Posner just 
spoke about including servitude and trafficking. Today, I would 
like to talk very briefly in my oral remarks about what the 
Department of Labor is doing in order to try to raise these 
living standards and working conditions globally.
    We work through three main channels: First of all through 
trade agreements and trade preference programs; second through 
technical assistance--projects on the ground in developing 
countries; and third through policy dialogue with foreign 
governments. First, the trade framework, something which has 
been referred to by all of the members who spoke. Our trade 
preference programs benefit approximately 140 developing 
countries, and our free trade agreements with labor provisions 
cover 16 trading partner countries. All of these agreements and 
trade preference programs include protections for labor rights.
    Protecting these labor rights in our trading partners is a 
reflection of our values as a society, and it also promotes our 
own economic prosperity in the ways I have already mentioned. 
By raising living standards, we hope to build the middle 
classes of our trading partner countries and trade recipient 
countries and allow them to buy the things that they produce, 
that we produce and that other countries produce.
    To ensure that our trading partners meet the labor 
obligations in these preference programs, including AGOA that 
Ranking Member Rohrabacher mentioned and the other preference 
programs, ILAB has increased is monitoring and analysis of what 
is happening on the ground in these countries that enjoy the 
preference programs and trade agreements, and we are doing this 
in part by adding significant additional staff this year with 
additional funds that Congress so kindly provided for us in the 
Fiscal Year 2010 budget.
    In fact, we expect to increase our staff by about 15 
percent this year, and we are increasing the intensity and the 
level of analysis of our monitoring and reporting on these 
conditions. We are also increasing the level of our engagement 
with foreign governments. As Mike mentioned, the State 
Department is in dialogue with foreign governments every day on 
these issues of human rights and labor rights, and we are as 
well. We follow up on our analysis by talking to governments, 
pointing out what the problems are, what is wrong and offering 
them assistance to deal with these problems and to improve the 
conditions for their workers.
    Second, we also work to bolster worker rights through 
innovative technical assistance programs on the ground. We 
particularly look for opportunities to find foreign governments 
who demonstrate the political will to improve their own 
workers' living conditions and rights at work. One example of 
the kind of technical assistance that we are providing is a 
very innovative program called Better Work, which is a factory 
monitoring program that we originally launched during the 
Clinton administration starting in Cambodia.
    It is a factory-monitoring program where the ILO goes into 
the factories in the export processing zones, monitors the 
conditions and reports what they find completely transparently 
on the internet for all to see, so consumers know the 
conditions, workers know the conditions, the international 
buyers know the conditions, and all governments know them. This 
has the effect of aligning the incentives facing the buyers, 
the sellers, the consumers and the workers along with the 
governments because we provide information that otherwise would 
not be available.
    We launched this program 10 years ago in Cambodia. It has 
proven to be a dramatic success. Studies have shown that it is 
the most significant factor in alleviating poverty in that low-
income country, and we are now launching Better Work programs 
in other countries as well. Ranking Member Rohrabacher will be 
interested to know that Lesotho has asked us for such a 
program, and we indeed used funds from our last year's budget 
to launch that program.
    We have now hired an executive director for the program, 
and we expect the monitoring to be up and running in months, 
and the government of Lesotho and the industry feels that this 
will be a needed advantage to keep the industry healthy and to 
allow it to grow and to create jobs in that African country. We 
have also launched such a program in Haiti, and despite the 
earthquake, we are hoping that program can nevertheless proceed 
and again attract investors and jobs to Haiti where they are so 
desperately needed.
    We are currently exploring the possibility of launching a 
program like this in Central America, and I know that Chairman 
Sherman was particularly interested in what has happened under 
the CAFTA-DR, and we feel that more robust approaches, such as 
this example, will be needed in order to improve the outcomes 
for workers under that trade agreement.
    We are also working to devise innovative programs to 
address child labor. Congress has been very generous in 
appropriating money for DOL to address international child 
labor issues for the last 15 years, and we are ready to launch 
a new generation of child labor projects that try to address 
the root causes of child labor, including the poverty of their 
families, and we hope to be able to launch the first of these 
programs very shortly in El Salvador again addressing the 
concerns that have been raised by members of this committee.
    The third channel through which ILAB works is policy 
dialogue with other countries. Our goal here is to improve 
labor rights through bilateral engagement and also through 
multilateral and global engagement. An excellent example of 
this kind of policy dialogue is the meeting that you referred 
to, Chairman Carnahan, the meeting of G-20 Labor and Employment 
Ministers, which Secretary Hilda Solis will host here in 
Washington April 20 and 21 of this year.
    When President Obama met with the leaders of the G-20 
countries in Pittsburgh last September at their summit meeting, 
he suggested that it was important for the heads of state of 
the G-20 to increase their focus on jobs because this is the 
most serious challenge facing many of our countries, and he 
offered to them that Secretary Solis would host their Labor and 
Employment Ministers to examine what has happened in our labor 
markets, the policies that we have implemented, to look at the 
results that we have had from those policies, share experiences 
and then try to improve global policy so that we can indeed 
have this raising of living standards and incomes around the 
world.
    On the basis of that meeting, we will make a set of 
recommendations to the heads of state when they meet in June in 
Canada. Let me conclude by just noting that I am certain that 
the administration and the members of this committee all 
clearly recognize the need for more jobs and for good jobs here 
in the United States, and I think from the international 
perspective that you all expressed in your opening remarks, I 
don't need to say once again that we will not be able to 
guarantee those good jobs here at home unless we can raise 
conditions for workers around the world, so I thank you again 
for this opportunity, and I look forward to your questions.
    [The prepared statement of Ms. Polaski 
follows:]<greek-l>Sandra Polaski deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you very much, and we want to start 
with questions with Chairman Sherman.
    Mr. Sherman. Thank you. These hearings are very important, 
but when it rains, it pours. I represent Northridge. They are 
having hearings right now on natural disaster insurance, so I 
will leave the room for a bit. I will be fully briefed on what 
you say. I will be back in touch by phone, and I thank Chairman 
Carnahan for letting me go first with my questions here.
    Mr. Posner, let us say a particular country simply had a 
law prohibiting labor organizing. Would that fact alone cause 
some negative comment in the Human Rights reports?
    Mr. Posner. Yes. In the course of preparing the Human 
Rights reports, we look at a range of the fundamental rights 
that you have identified that the ILO has identified, and 
countries like China and Vietnam that prohibit people from 
organizing.
    Mr. Sherman. Thank you. What about for the Millennium 
Challenge Account? If a country just prohibited labor 
organizing, would that count against it in its total effort to 
qualify for the Millennium Challenge Account?
    Mr. Posner. I think the Millennium Challenge Account looks 
at a range of indicators or factors of which political civil 
rights broadly are one. I don't think they have a particular 
standard that looks precisely at labor, but it is in broader 
context, yes.
    Mr. Sherman. So it would almost be up to a State Department 
decision whether the right to organize is a human right. Do you 
have a position on that? I know that Millennium Challenge 
Account requires respect for human rights. Does that include 
the right to organize?
    Mr. Posner. Yes. I think there is now in fact, and I have 
had some discussions with people at the Millennium Challenge 
Account, there is I think a review of the various indicators 
that they are using, and one of the things we are discussing is 
broadening the human rights indicators beyond the democracy 
indicators from I think Freedom House that they use, but that 
is very much part of our discussion.
    Mr. Sherman. Democracy and slavery can co-exist. We proved 
that in this country unfortunately 150 years ago, and a country 
that has slavery and democracy should not qualify. Returning 
though to your standards of the human rights reports, let us 
say a country didn't officially ban all labor unions, but had 
some ruse or some provision in effect to accomplish the same 
thing. Would you then adversely comment on that law in the 
human rights reports?
    Mr. Posner. Yes, and we do routinely look at both legal 
prohibitions but also practical impediments to people being 
allowed to organize and to represent their interests as 
workers.
    Mr. Sherman. I know you can't do it, but I want you to 
issue a human rights report chapter on the 20 some states that 
have right-to-work laws. By the standards you have told these 
subcommittees here today, the United States should be adversely 
commented upon in any human rights report issued by any country 
that follows the same standards as the United States State 
Department. There are two Generalized System of Preferences 
petitions pending. One is against Sri Lanka. I believe that has 
been pending for 2 years.
    The unions only want a hearing on their case, and for the 
U.S. Government to engage with the Government of Sri Lanka to 
adopt a work plan to enact needed legal reforms and to address 
persistent problems in enforcement. As far as I know, no agency 
has challenged the facts or merits of that Sri Lankan petition. 
Why, nearly 2 years later, can the United States not decide to 
accept the petition and develop a plan with the Government of 
Sri Lanka to address the issues in that petition, and I will 
address that to whichever witness. I believe it is more of a 
State Department question.
    Ms. Polaski. Chairman Sherman, you are right. That petition 
has been outstanding for a while. It is a live petition. It has 
not been dismissed, which means that it has the potential to be 
utilized to produce improvements. We in the new administration 
have stepped up our efforts to look at that situation and to 
engage, and I am afraid I don't have any real progress to 
report to you now, but I can assure that we are in a discussion 
in the interagency process about the need to address the 
allegations that are in that petition.
    Mr. Sherman. Will it take another 2 years or another 2 
months?
    Ms. Polaski. I hope it will not be 2 years. I hope it will 
be closer to 2 months.
    Mr. Sherman. I believe my time has expired.
    Mr. Carnahan. I want to recognize Ranking Member Royce.
    Mr. Royce. Thank you. Let me ask this question. The World 
Bank has estimated that developed world agricultural subsidies 
cost poor economies about $60 billion a year. These subsidies 
seriously harm the livelihood of workers abroad. What is the 
administration's position on U.S. agricultural subsidies, 
specifically their impact on workers in the developing world?
    Ms. Polaski. Ranking Member, I don't fully understand the 
question. Would you mind repeating it, please?
    Mr. Royce. Well, we have agricultural subsidies in the 
United States to the tune of $60 billion a year.
    Ms. Polaski. Subsidies?
    Mr. Royce. Subsidies, yes. Taxpayer subsidies, and that 
clearly affects the well-being of farmers that are competing in 
the rest of the world with a situation where rather than rely 
on markets, we have produced a taxpayer subsidy here in the 
U.S. It is one of the reasons we have difficulty liberalizing 
trade with other countries around the world because of these 
subsidies that we run here. I am asking for the position of the 
administration or their thoughts on reducing these subsidies in 
exchange for reducing other impediments so that we can 
liberalize trade around the world. It would be beneficial to 
populations, especially in Africa where so many people rely on 
this as a livelihood.
    Mr. Posner. Congressman Royce, these are issues that I am 
sure representatives of the Department of Agriculture deal with 
all the time. I am glad to take the question and then have them 
respond.
    Mr. Royce. Well, let me put it this way. This is a worker 
issue because West African cotton workers are getting hammered 
by our cotton subsidies, which cost American taxpayers very 
dearly to the tune of $60 billion for all subsidies. Meanwhile, 
the President's trade plan reports on all the aid that we are 
providing to West Africa's agricultural sector, which also 
costs our taxpayers dearly, so we fund efforts to build 
capacity with one hand, and we decimate Mali's and Niger's 
competitiveness with the other. I hope this is an issue that 
can be seriously looked at. I would hope that you would think 
that through in terms of what kind of sense that would make.
    Under the GSP Program, Colombia enjoys duty-free access to 
the U.S. market for the vast majority of its goods. That access 
continues regardless of the status of the pending Colombia 
trade agreement, and that agreement primarily lowers Colombian 
barriers to U.S. goods and services, so by not approving this 
agreement, we are maintaining a very unbalanced commercial 
relationship with Colombia, essentially giving it a free ride.
    How does this serve President Obama's goals of doubling 
U.S. exports? Let me ask how many U.S. sales do you estimate 
are being lost because of high Colombian trade barriers, which 
would be reduced if this were to pass, and why isn't the 
administration aggressively backing the Colombian FTA?
    Ms. Polaski. If you don't mind, Ranking Member, I would 
like to go back a moment to your previous question, which for 
some reason it took me a moment to understand about the 
agricultural subsidies. I did want to point out that in 
President Obama's proposed budget for Fiscal Year 2010 he did 
suggest a number of serious modifications to the subsidies 
programs that I think went some distance to addressing the 
concerns that you have expressed. However, they were not 
enacted in the final analysis, and I do not know if they are in 
the new budget, but my guess is that there would be such 
measures in the budget proposal for this year.
    Mr. Royce. I would hope to see more leadership by the 
administration on this issue, and also on the issue of 
Colombia, the nonpartisan Congressional Research Service (CRS) 
reports violence against trade unionists has declined 
dramatically since President Uribe took office. That was in 
2002. We are 8 years past that. In 2008, the Washington Post 
noted that the number of murdered trade union members, now that 
is members, not leaders, was less than .2 percent of the 17,000 
murdered Colombians, and it concluded this hardly suggests a 
campaign on anti-union terrorism in Colombia. Do you agree with 
that conclusion?
    Ms. Polaski. We have been relieved I think is the right 
word to see that there has been a decline in the rate of 
murders against trade unionists in Colombia, and that decline 
has persisted over a number of years. Unfortunately, there was 
a slight increase over the last few years, although not to the 
levels that we had seen earlier. What we are doing there is a 
couple of things. We are working together with USTR together 
with the State Department and other agencies to try to develop 
a list of the measures that we think would effectively address 
the existing problems including the violence that does exist.
    It is down, but it is certainly not eliminated. 
Specifically, the impunity, the problem that most of those 
murders that have occurred over the years have not been 
resolved, the vast majority have not been resolved, and we feel 
that to have any deterrent effect, you have to address the 
murders that have happened in the past and the problems with 
labor law. We are working actually to produce a set of very 
concrete benchmarks that the Colombian Government can implement 
in order to progress to the point that this legislation would 
be acceptable to Congress.
    Mr. Royce. And the impact, the barrier are on U.S. goods 
going into Colombia by failure to pass this legislation because 
Colombia goods come into our market.
    Ms. Polaski. Understood. Understood, and I would go to Mr. 
Scott's comment that there is a delicate balance between the 
economic opportunity and the basic human rights and labor 
rights that we have to keep in mind as part of the overall 
picture.
    Mr. Royce. Well, your untenable position that Uribe is 
standing in the way of labor rights, which I don't believe, the 
Post doesn't believe, I don't think you really believe it, as 
opposed to discussing a government like China's is to me 
phenomenal, but I yield back, Mr. Chairman.
    Mr. Posner. Can I just add a word on it? I think what 
Sandra Polaski said is that we are very mindful of the fact and 
share your assessment that the level of violence against trade 
unionists has gone down. It is still at a very high and 
unacceptable level. That doesn't mean that it is the sole 
responsibility of President Uribe. It is a condition in the 
country. It is a violent place. There is still between 25 and 
40 labor leaders killed every year.
    Those levels are highly unacceptable for any society, and 
they are threats. There is a range of other issues beyond the 
murders that we are determined to look at. That is a piece of 
the puzzle. It does not determine entirely how we set a trade 
policy with Colombia, but it is an important piece. That is 
all.
    Mr. Royce. No, no. I am just looking at Vietnam versus this 
and the absolute antithesis, and frankly, a lot of those labor 
unions' labor leaders are people that I would agree with. My 
grandfather was a labor union organizer. I am just saying the 
fact that Vietnam gets one standard given the appalling, 
unbelievable conditions and repressions that goes on in that 
country, and you have an elected democrat here, Uribe, where 
because of what happened 10 years ago, you can't get past 
figuring out how to address that, it just seems rather odd to 
me. I yield back, Mr. Chairman.
    Mr. Carnahan. Thank you. I want to recognize Mr. Scott.
    Mr. Scott. Thank you very much, Mr. Chairman. Let me pick 
up on what my good friend, Congressman Royce, has opened here 
and the situation with Colombia and see if we can't get a 
little more light on this. I went down to Colombia myself with 
then Secretary Rice about 2 years ago and visited with Uribe, 
the entire administration. The sad fact of the matter is that 
what we have here is not just a casual situation regarding 
labor leaders.
    It is a targeted effort, and it is manifested within an 
arena of a lot of violence. There is drug trafficking. There is 
the FARC down there. Here is the issue. The issue is that to 
what extent is the government involved in this, and there have 
been some indication that that is true. When I was down there, 
I put that question directly to President Uribe and the 
administration. There have been eye-witness accounts where the 
soldiers themselves have shot and killed trade unionists.
    It has been in the news there, and since 1988, there have 
been 2,756 labor trade unionists killed. That doesn't count 
others that have been wounded and all of the other things that 
are happening. Secondly, it is not just that, but it is when 
the culprits get caught. There is no trial. There is impunity. 
The question is how can we have a trade policy as we want to, I 
want to? To what degree do we bring down our standards if we 
engage in a trade pack with a country with this kind of record?
    The question becomes what can the United States do, what 
can we do, to help workers in Colombia who are fighting for 
their rights? What more can we do to get the government itself 
to take a more active, aggressive role in bringing fair justice 
to these trade unionists because if you have impunity, and they 
are allowed to get away with it, and there is some complicity 
within the government itself, those are things that we can 
correct, so the question is what are we doing to correct and 
give the actual help down to Colombia that we need.
    Mr. Posner. It is a good question, Congressman. I am glad 
you are continuing this line. There is I think an opportunity. 
As you know, President Uribe is not going to seek a third term, 
and we are in a transition, which is going to provide on a 
range of issues an opportunity to renew and open up discussions 
on human rights and a range of other issues. One of the 
challenges, which you have identified so well, is that it is 
not just that there is a high level of violence, but there has 
been a history of impunity, and it is weak judicial system by 
Colombia, who I have met with, have acknowledges as much.
    We can and should be doing more to strengthen it. We can 
and should be doing more to work with labor leaders and 
organizations concerned about these issues in Colombia. We are 
doing some of that. I think we could do more. I think there 
really are opportunities here to break the cycle of violence, 
but it is longstanding. It has been at a very high level, and 
it is something that is going to require more than a few months 
of effort, but we are determined to do it.
    We are interested. We are committed to it, and I think you 
are right to keep pressing us. This is an area where there is a 
serious issue, one that needs to be addressed and one where we 
can and should be doing more.
    Mr. Scott. Yes, and just want to emphasize for the record 
so we really know how serious this is, that of those more than 
2,700 killings, more than 95 percent of them have had no 
convictions. That is astounding that over this period of time 
out of all of those killings, 95 percent of them, in other 
words less than 5 percent of them have been resolved. Ninety-
five percent of the killers have gone free, and so I think that 
is the fundamental question we have got to ask.
    I wanted to ask this other question. In June 2009, the 
Washington office on Latin America published a report that 
revealed that the labor conditions in the DR CAFTA countries 
have not improved and violations have not diminished regardless 
of promises made by member countries to improve labor rights 
and the millions of dollars invested by the United States to 
meet that objective, and moreover they found that the labor 
situation in Central America was deteriorating further due to 
the global economic crisis.
    My question is would you recommend that the United States 
support efforts to strengthen labor rights and combat impunity 
in the DR CAFTA countries by negotiating the agreement and 
increasing the weight of penalties for labor violations?
    Mr. Carnahan. If the witnesses would yield, I am going to 
ask you to answer that as briefly as you can because we do need 
to get on to some of the other members.
    Ms. Polaski. Yes. I would just say, Congressman, that you 
are absolutely right that we can do more in CAFTA-DR. Of 
course, the crisis has hit those countries and the workers in 
those countries as it has hit us and a number of other 
countries, and so a part of that is addressing the overall 
economic recovery, but we think that there is much more we can 
do in the region, and I mention specifically that we are 
looking at launching the type of factory monitoring program 
that was so successful in Cambodia, and we have had a good 
reception in at least one Central American country, which would 
put a spotlight on conditions in the factories there.
    We think that it could be very successful. We have had 
other countries come forward and ask for very innovative child 
labor programs, so we think that if we look separately at each 
of those countries, and where is the political will and what 
are the opportunities, we can probably make some very, very 
good progress in some countries, and if we can't make progress, 
then of course we have to think about utilizing the various 
enforcement mechanisms that we have in that agreement.
    Mr. Carnahan. Thank you. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and if 
we are focusing on Colombia, let me just note the statistics we 
have been talking about here are from 1988. Frankly, I don't 
know what is relevant from something 22 years ago when the 
country was in the middle of a revolution. I mean, there was a 
lot of people being killed there absent of the labor union 
movement, but is it my understanding from the witnesses today 
that yes, Colombia has had problems, and they still have 
problems, but the trend line is something that is positive, is 
that correct?
    Ms. Polaski. Congressman, I think that the number of 
murders is down. I would agree with my colleague, Mike Posner, 
that 40 murders a year of trade unionists is 40 too many, so 
even though the trend line is down, it still is extremely high. 
It is still the most dangerous place in the world to be a trade 
unionist, and the progress on impunity, the progress on 
prosecuting the perpetrators of those crimes has not really 
improved, so that is one point.
    Mr. Rohrabacher. Yes, but let me just note that when you 
are talking about Colombia, when you have the revolutionary and 
violent revolutionary situation that they had, quite often that 
spills over into other areas of social life where you have 
people who are organizing unions who now you have got armed 
groups of people who are for hire there, and quite often there 
is ``us versus them'' mindset that creates this, and again it 
should not be tolerated. I am not tolerating. I am just 
suggesting that if we are going to take a look at countries of 
concern, I think Colombia is improving its situation.
    I see no improvement in Vietnam. I see no improvement in 
China. Let me ask about China. I remember when I was younger I 
spent the summer of 1968 in Czechoslovakia, which was quite a 
volatile situation then as well, but I remember that the trade 
unions were upset because they could not form a union because 
they were told well, we have one big union in communist 
countries. This is the workers' union, and all it was was a 
front for the communist party, which of course suppressed 
anybody who was making any demands at the workplace. Is that 
the situation in China as well that nobody is permitted to have 
a union except the big communist party-controlled union?
    Mr. Posner. Yes. This is not a trivial detail in the way 
the Chinese Government operates. Central party control of all 
institutions, including labor, there is a central union, which 
is really a part of the party government apparatus, and no 
unions are allowed to form.
    Mr. Rohrabacher. Right. Well, that happened in Cuba, too. 
We know that when Castro took over, forgetting all these kids 
who are wearing these Che Guevara shirts don't understand the 
Che Guevara personally took trade union leaders out and shot 
them, murdered them by the hundreds, trade union leaders 
because they were starting their communist party All Workers 
Union. What is significant today however is the fact that our 
people here are being put out of work because we permitted a 
respectable trade status with a country that does not permit 
unions other than the one that is controlled by the government.
    Let me just note that I do disagree with my good friend, 
Brad, on right-to-work laws. There is a jump here. I happen to 
believe that people have a right to join a union, and I think 
that they don't have that right in places like China. Well, it 
is one thing to say that. It is another thing to say well, 
everyone has to join the union. I don't believe that you should 
be able to force people to join the union.
    I think in our country that the fact that you have been 
able to force people to join unions rather than depend on 
people joining up and being solid and having solidarity 
together voluntarily has led to corruption within our own union 
system where some union bosses have known that people have to 
join anyway, and that does not work to the benefit of a very 
effective union system in our own country, so I just wanted to 
make sure I got that on the record because I certainly don't 
believe that right-to-work laws are a violation of anyone's 
right who wants to join a union voluntarily.
    I might add I joined a union voluntarily. I was a member of 
the Communication Workers of America, and I helped unionize my 
shop when I was working as a young journalist, and my boss got 
what he deserved, et cetera, but the fact is that I had a right 
to do that, and I made sure that as we did that, that everybody 
in that shop knew well, don't worry. I mean, officially you 
have to join, but that is not what this is all about, and by 
the way, everybody in my shop joined that union. It was a 
perfect voluntary situation, so as we move forward, I hope in 
this discussion, Mr. Chairman, that we realize the implications 
are over there, and the implications are here.
    Yes, we are concerned about the human rights in China, in 
Vietnam, Colombia and other countries. We are also concerned in 
countries that violate human rights of their working people 
whether or not that means that our people here end up out of 
work, and the wages here get bid down because we are permitting 
a free trade status with countries that are fundamentally not 
free. I would suggest free trade between free people is a good 
thing, a win-win.
    One-way free trade or free trade with a dictatorship 
undermines the well-being of our own people except it does 
enrich our corporate elite, who end up giving themselves big 
bonuses for short-term profit as their own companies go under 
because they have invested their money over in China where 
eventually it becomes the property of the Chinese. Thank you 
very much, Mr. Chairman.
    Mr. Carnahan. Thank you, Mr. Rohrabacher. Now I would like 
to recognize Congresswoman Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, let me thank you and the 
ranking member for an instructive and important hearing, and I 
ask the witnesses to accept my apologies. We are on the floor 
debating the resolution regarding Afghanistan. I would like to 
track the line of reasoning of my colleague from Georgia and 
also say to my distinguished colleague from California we don't 
have an atmosphere in America where people are forced to join a 
union.
    It may be that in the energy of organizing, it is a 
vigorous campaign, but in the current 21st century and 20th 
century, union organizing has been open and transparent and up 
for acceptance or rejection, but more importantly, I don't know 
the last time when a governmental entity killed a union leader 
because of their organizing here in the United States. There is 
certainly history in any movement where loss of life occurs, 
and I think what we are talking about today is a completely 
different set of circumstances which has to do with the 
oppressive, appointed and directed killing of individuals who 
are seeking worker and human rights.
    I associate those two forces together, human rights and 
worker rights, and I would like to try to probe what is the 
sense of the administration's position. I have seen the 
President put a whole new face on American foreign policy, and 
I, for one, am celebrating. I think it has been invigorating. I 
think it has been positive, and I think we get things done, so 
my question is does the administration view workers' rights as 
consistent and equal to human rights?
    In that instance where we are conflicted, where we are in 
conflicts such as the continuing conflict now waning in Iraq, 
the rising conflict in Afghanistan that many of us are asking 
for an assessment and reconsideration, but my colleague spoke 
eloquently about Colombia and the right to justice for those 
who lost their lives, my question is that if we send our troops 
in harms way, shouldn't one of the elements of the purpose of 
us being there, certainly not to dominate by an exact, if I 
will, copy of America's Government and policies and 
Constitution, we can do that, but the basic simplicity of 
worker rights and human rights, so would you give an assessment 
of what you think human rights and worker rights are in Iraq 
and Afghanistan?
    Would you also assess what you think human rights and 
worker rights are in the Mid East, in particular places like 
Oman where they are just symbolic of those who come to work in 
domestic positions and lose their passports and are held in 
involuntary servitude, and the other point that I would make if 
you would comment on because we in Congress need to be your 
friend, what is the legislative fix that we need in order for 
worker rights and human rights to be in the forefront of any 
conflict that we engage in?
    We are putting American treasure on the ground. We are 
losing American treasure, and we leave these countries in the 
same condition that we found them, abusing human rights and 
abusing worker rights, and might I add to that as to whether or 
not you have seen any progress in China, who we worked with 
since the PNTR was passed under the Clinton administration? The 
concept of that was to open opportunities so there could be 
some role-modeling so that China could see how things flowed in 
the Western world, not to take them out of completely out of 
their governmental structure, but look at the issues of 
religious freedom, worker rights and human rights.
    Mr. Posner. At least three different subject that are 
connected, and let me try to take them one at a time. In 
December, Secretary Clinton gave a speech at Georgetown where 
she outlined the intersection and the indivisibility of human 
rights, democracy and development, and when we talk about these 
concepts, and when she talks about these concepts, and the 
President does, we have a broad notion of democracy and human 
rights, which includes the right of civil society to function, 
rule of law, the right of trade unions to operate, free press, 
transparency and the lack of corruption, the right to vote.
    There is a broad spectrum of things that are brought under 
that concept, which I think certainly includes notions of the 
rights of workers, and so I think we have a good framework and 
a good foundation to work on these issues within that context. 
When you talk about Iraq and Afghanistan, I think realistically 
the reports will show that conditions for workers are poor, but 
we are in war situations. We are in I think in moment in Iraq 
with an election just having occurred where we need to be and 
should be spending more time trying to nail down some of the 
commitments the government has made and make them real.
    We are going to be in the next months, as we withdraw our 
own presence there, trying to build up these democratic 
institutions, and I think if our efforts there are to be 
validated over time and history, one of the things we need to 
be holding ourselves accountable to is that we live our values 
and that we try to impart standards like the rights of workers 
there, so that will be I think an important piece of what we 
need to be doing.
    Ms. Jackson Lee. If I may? Those areas will always be 
conflicted, and if we don't make the point forcefully or firmly 
that shedding our blood equals to certain values such as human 
rights and workers rights, we will still leave them in the same 
condition that we found them in.
    Mr. Posner. Yes, I very much agree. You mentioned the Gulf 
states, Oman and others. The problem you identify is 
particularly severe that of domestic workers, a lot of them 
brought in from other countries and living in and working in 
situations that are just totally deplorable and unacceptable. 
It is part of what we are trying to do. It is part of a broader 
human rights effort. There is an office in the States 
Department looking just at trafficking that is very focused on 
these issues, but these are places, and these are issues we 
need to put a lot of attention. They are critical problems.
    The last bit on China, there are some interesting 
developments, but it is still a very restrictive environment. 
What I said before is the principal piece, the government 
tightly controls the ability of workers to organize. It doesn't 
allow people to organize freely outside of the state-run, 
party-run central union. There are a range of other problems, 
health and safety, forced labor, re-education through labor 
camps, lots and lots of problems with people working long 
hours, usually young women. It is a very serious set of issues, 
and I think we owe it to ourselves and again as part of a 
broader human rights policy to make these issues front and 
center.
    Mr. Carnahan. The gentlewoman's time has expired.
    Ms. Jackson Lee. Mr. Chairman, may I just yield to you just 
for one moment, and I will be very quick?
    Mr. Carnahan. Proceed.
    Ms. Jackson Lee. This looks like a framework for 
legislation. We have all spoken eloquently over the years. We 
are members of human rights caucuses, and when I hear this, and 
I know there is a report coming out, it just looks like it is 
begging for some sort of emphasis in our trade negotiations. 
The city of Houston has become a repository for human 
trafficking. We have task forces and local authorities looking 
at people coming in from South and Central America.
    I would just say that if we can work together with the 
administration, it is heart in the right place and maybe need 
some extra resources or regulatory scheme, we have a problem on 
the condition of workers and the condition of human rights 
around the world as evidenced by the testimony of the 
Secretary, so I yield back and hope we can work together on 
some framework that is a little stronger that what apparently 
we have presently now.
    Mr. Carnahan. I do as well, and I thank the gentlewoman, 
and I want to recognize gentlewoman from California, Ms. 
Watson.
    Ms. Watson. Thank you, Mr. Chairman, and I think this is a 
very relevant hearing. I would like to thank the witnesses, as 
well make a comment and then raise a question. At a rubber 
plantation in Harbel, Liberia, U.S. corporation Firestone 
National Rubber Company has had a long history of poor working 
conditions, child labor abuses and requiring workers to meet 
exceptionally high daily production quotas. After years of 
neglecting workers' concerns, Firestone in the year 2008 made a 
positive step forward by addressing these issues and signed a 
new collective bargaining agreement.
    The agreement included a number of improvements including 
lowering production quotas, higher wages, greater safety 
productions. However, the agreement has not been fully 
implemented, and employees report still being told to produce 
at the old quota levels. As a result, because a single 
individual cannot produce at such unrealistic levels, workers 
are forced to bring wives and children to work to help them 
meet the demand. Children are once again forced to work against 
their will, so what has the United States done to try to end 
child labor practices or otherwise improve working conditions 
on this plantation? Both of you, could you give us a response?
    Ms. Polaski. I can just say, Congresswoman, I am not aware 
of that particular situation, but I can promise you that we 
will look into it, and we will see what possible ways we may 
intervene in order to try to improve that situation. We have 
done a lot of work on child labor issues in West Africa 
generally, but perhaps not as much in Liberia, and so we will 
look into that, and we will get back to your office with our 
results.
    Ms. Watson. All right. In this particular issue with 
Firestone, you might not have the details on that. Mr. Posner, 
would you? Okay. Well, what do you suggest that we should do to 
end other instances of unfair child labor practices or to 
improve the working conditions where U.S. companies are not 
addressing this issue. Do you have any ideas what we can do in 
that regard?
    Mr. Posner. Yes. Just a couple of things. I think one of 
the most interesting and to me innovative and exciting 
opportunities we have is work we are doing with the Government 
of Brazil and the International Labor Organization on this 
issue of child labor. The Government of Brazil has begun to 
work with some of its neighboring countries, and is now looking 
also to work with some of the Portuguese-speaking countries in 
Africa. We are helping to fund that.
    We are working in a tripartite arrangement with the 
International Labor Organization, which is really expert in 
this area, but it is the kind of innovative approach that I 
think really has the potential to bear results. With regard to 
companies in particular, I think this administration, and I am 
particularly interested in trying to push harder for companies 
to accept their individual and collective responsibility.
    The government can do so much. The ILO can do more, but we 
need also to have partners in the corporate community who take 
their responsibilities seriously. Some of the issues in West 
Africa, for example, involve cocoa production and cocoa farming 
in the candy industry. We have got all kinds of issues with 
apparel and toys and low-wage labor-intensive industries 
throughout the world, in Asia, Latin America. There need to be 
greater efforts by more companies to take these things 
seriously, and I think we in the government need to be pushing 
for that so that they take their responsibility in this new 
global economy.
    Ms. Watson. When I came into the committee, I think you 
were discussing Colombia, and that issue has come to our 
attention on the floor of the House. We have hesitated in 
dealing with Colombia because we feel they have not complied 
with the wishes for change in their child labor laws, so this 
tends to be a concern not only in Central America but in some 
of the poorer countries in Africa, so I would like to see us 
take a position to discourage companies from doing business 
where they violate the child labor laws or don't have any laws 
concerning children or even women.
    I would hope that as you look these issues that we will set 
up some standards, and maybe the program you just described, 
Mr. Posner, we could use that as a standard for Colombia and 
some of the others. Thank you so very much, and I yield back, 
Mr. Chairman.
    Mr. Carnahan. Thank you. I wanted to ask a couple of quick 
questions. Then, I am going to yield for an additional question 
to Mr. Sherman. Then, we are going to move on to our second 
panel. Let me ask you both quickly. We have seen stories and 
heard over and over again about problems with vehicles from 
overseas, harmful drywall, toys, baby formula, you name it, 
lack of product safety provisions and enforcement in our trade 
provisions, certainly its impact on American consumers but also 
in terms of leveling the playing field for American businesses 
and workers. To what extent is the administration incorporating 
these product safety considerations with our trading 
relationships? Let me start with Ms. Polaski.
    Ms. Polaski. Thank you. The administration is very 
concerned obviously about the quality of the products that we 
import, the products that we produce domestically and that we 
import in terms of their product safety and the potential 
effect on consumers, and we have had, as you mentioned, a 
number of very frightening experiences including with imports. 
We have not yet incorporated product safety requirements into 
our trade agreements.
    That is the threshold, a new frontier, if you will, that 
one could consider, Members of Congress, members of the 
administration could consider going forward. I do know that the 
Food and Drug Administration is paying a lot of attention to 
the products that are coming and looking for ways for them to 
try to, if you will, use the borders as an extra line of 
defense against harmful products not penetrating the country 
and getting to our consumers, but in terms of it being a 
condition of our trade agreements, that does not exist at this 
time, Congressman.
    Mr. Carnahan. And, Mr. Posner?
    Mr. Posner. Yes. The only thing I would add is that I think 
it is often the case that countries that have weak regulatory 
protective systems for workers are also countries that are 
falling behind in terms of product safety and these other 
issues you are describing. It is part of a package. Our 
ultimate goal, our long-term goal is to encourage the creation 
and help create strong democratic institutions in countries 
that domestically deal with these issues in a fair way. Labor 
rights, workers rights, product safety, they go together. It is 
part of infrastructure of government.
    Mr. Carnahan. I just want to close my questioning by saying 
I think this is a relatively new area. It is something I think 
that has gotten consumers' attention, and it should be part of 
our overall strategy really focusing on that product safety. 
Again, I think it is smart for how we approach our trade 
agreements. I think it can make a big difference for our 
workers and our businesses here at home in leveling that 
playing field and addressing some of these problems we have 
seen in terms of this race to the bottom in standards across 
the board whether it be labor, environment or safety standards. 
Thank you, and I am going turn next to Chairman Sherman.
    Mr. Sherman. Thank you. One question. The United States has 
ratified two of the ILO conventions, Convention 105 on the 
prohibition of forced labor and Convention 182 on the 
prohibition of the worst forms of child labor, and that is only 
two out of eight fundamental, or core, ILO conventions. The 
ones we have not ratified concern such issues as freedom of 
association, collective bargaining and prohibitions on forced 
labor discrimination in employment.
    The U.S. is among the company of China and Iran in having 
failed to ratify Convention 87 on freedom of association. Do 
you think that such a record affects the credibility of our 
nation with regard to advocating for respect for international 
labor standards and human rights, and is there any reason why 
the U.S. Government should not move forward to ratify 
Conventions 100 and 111 with regard to equal pay and 
nondiscrimination in employment? Mr. Posner?
    Mr. Posner. Let me start with the good news. The 
administration has identified as a priority the ratification of 
Convention 111. It is before the Senate. We are going to be 
working with the Senate on the President's committee on the ILO 
as a tripartite Federal advisory committee from State, Labor 
and Commerce. It is on their agenda. There is going to be more 
activity on this going forward, so this is the place to start.
    I think as you know in general, there is a long history of 
the United States being very reluctant to ratify a whole range 
of treaties on a whole range of subjects. We take the view that 
we ought to be in full compliance before we consider ratifying. 
Lots of other governments say let us ratify the treaty and then 
bring ourselves up to the standard. That is almost a 
theological difference, but it is also tied with a whole range 
of other things. I don't view these in isolation. I think they 
are part of a broader pattern, and it is something that over 
time hopefully one at a time beginning with Convention 111 we 
can begin to chip away at.
    Mr. Sherman. I would say those countries that ratify and 
then bring themselves into compliance at least have brought 
themselves into compliance, and our theological approach of not 
bringing ourselves into compliance and then not ratifying is 
embarrassing at least to me.
    Mr. Posner. If I could just add one thing. It is I think 
important also to say that the spirit and intent of a lot of 
the ILO Conventions we are very much supportive of. We are 
supportive of the ILO as an institution, and the fundamental 
rights that are identified in that declaration are things that 
we very much embrace as a society, and we embrace them by and 
large domestically and certainly in our international dealings 
as well.
    Mr. Sherman. I get to have just the last word and say we 
only embrace the right to organize in half of our states, and I 
yield back.
    Mr. Carnahan. Thanks, gentlemen, and I thank the panel. We 
will excuse you and turn now to our second panel. I want to 
welcome our next panel through a brief introduction, then turn 
to your testimony followed by questions, and we expect we may 
have some votes somewhere not long after 5:00, so we will try 
to move this along and appreciate you being here and for your 
patience today.
    First I want to welcome Mr. William Lucy. He is chair of 
the AFL-CIO, Executive Council Committee on International 
Affairs. Mr. Lucy is the international secretary and treasurer 
of AFSCME and founder and president of the Coalition of Black 
Trade Unionists. Also, we have with us Dr. Bama Athreya, 
executive director of the International Labor Rights Forum. Dr. 
Athreya has worked on labor rights issues for two decades 
focusing on Latin America and Asia.
    Finally, we have Mr. John Murphy, vice president of 
International Affairs at the U.S. Chamber of Commerce. Mr. 
Murphy previously served as executive vice president of the 
Association of American Chambers of Commerce in Latin America. 
Welcome all of you, and we will start this panel with Mr. Lucy.

    STATEMENT OF MR. WILLIAM LUCY, CHAIR, EXECUTIVE COUNCIL 
  COMMITTEE ON INTERNATIONAL AFFAIRS, AMERICAN FEDERATION OF 
    LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS (AFL-CIO)

    Mr. Lucy. Thank you, Mr. Chairman. Chairman Carnahan----
    Mr. Carnahan. Mr. Lucy, be sure you check your mic there. I 
am not sure we have it on yet.
    Mr. Lucy. Thank you. I want to thank you for this 
opportunity to testify today on behalf of the 11.5 million 
members, working men and women of the AFL-CIO. The subject of 
this hearing promoting international worker rights is one of 
which many of us have spent half a lifetime working on. This 
hearing could not be timelier. We remain mired in the middle of 
a global economic crisis, the worst in over 80 years. The human 
toll of rising unemployment, poverty and inequality is truly 
staggering.
    The ILO has reported that worldwide unemployment increased 
by roughly 34 million workers in the year 2009 and that an 
estimated 100 million women and men fell into absolute poverty 
that same year. Many of those fortunate enough to be employed 
are vulnerable, facing reduced hours, wages and benefits and a 
highly uncertain future. Even before the recession however, 
workers worldwide and especially as Secretary Posner pointed 
out migrant workers were in serious trouble.
    The inability of workers to organize and bargain 
collectively due to labor flexiblization fierce and often 
illegal employer opposition and the lack of effective 
enforcement by governments has led to perilously union density 
in many parts of the world as existing unions were broken or 
busted and new unions were unable to form. The results have 
been the absence of workplace democracy accompanied by poor 
working conditions and wages insufficient to support a decent 
livelihood.
    Massive unemployment creation now needs to be a macro-
economic policy priority at the national and global level. 
Millions of people around the world simply need jobs. The AFL-
CIO has recommendations for re-balancing the global economy and 
creating millions of new jobs in the short and long term. I 
will not address those here, but however we know integral to a 
balanced economic recovery is the creation of not just any jobs 
but quality jobs. This will not be possible in the absence of 
full respect for fundamental labor rights.
    It is on this issue that I will direct the balance of my 
comments. We urge Congress and the Obama administration to 
consider recommended reforms in the following three areas, 
which we view as vital to effectively promoting international 
worker rights. The details of these recommendations are set 
forth in our written testimony, which is before the committee. 
First, we need to make certain that the U.S. agencies charged 
with promoting international labor rights have the mandate, 
resources and personnel necessary to carry out their respective 
missions.
    This includes substantial funding increases in the 
International Labor Affairs Bureau, or ILAB, the Department of 
States' Bureau of Democracy, Human Rights and Labor, the 
National Endowment for Democracy and Labor Programming at 
USAID. These core agencies have responsibility for the 
promotion of international workers rights through research, 
reporting, in-country programs and the enforcement of the labor 
provisions of preference programs, trade agreement and other 
instruments.
    A strong commitment to labor diplomacy should include 
placing more foreign service officers trained and committed to 
labor affairs in our embassies around the world. These labor 
offices promote workers rights and serve as an important 
contact point for working people across the globe. Foreign 
assistance funding must also be directed at programs that build 
sustainable worker-led institutions and strengthen the capacity 
of these organizations to defend fundamental democratic and 
worker rights.
    Second, the administration has at its disposal a number of 
trade and investment tools that can be employed to create the 
political space for legal reforms and for workers to exercise 
their fundamental labor rights without fear of reprisal. It is 
important that we strengthen these tools to better promote 
international labor standards abroad. We urge the Congress to 
work this year to pass trade preference reform, which must 
include stronger labor eligibility criteria and establish a 
regular, transparent process for the acceptance and review of 
complaints.
    It is also essential that the model bilateral investment 
treaty be strengthened substantially beyond the weak non-
derogation language that currently exists. Additionally, any 
new free trade agreements must make progress beyond the May 10, 
2007, agreement. While May 10 marked a substantial step 
forward, there remains some room for improvement. Enforcement 
of labor provisions of trade agreements is also critical.
    Right now, the Mexican Government is engaged in a formal 
assault on independent democratic unions and core labor rights 
exemplified by the recent attacks on the Miners and Electrical 
Workers Unions. The U.S. must act now to hold the Mexican 
Government accountable. We also remain steadfastly opposed to 
the pending trade agreement with Colombia until we see 
substantial progress with regard to violence against trade 
union leaders and high levels of impunity for those crimes as 
well as comprehensive labor law reform and a sustained 
demonstration of the will to enforce those laws.
    The discussion just a while ago sort of left out the fact 
that these are targeted activities, and we think that the 
country should be called to task by the discussions between 
ourselves and then with regard to the agreement. Third, the 
Obama administration needs to work globally to create and 
enforce fair rules for the global economy, to foster 
sustainable growth and broadly shared increases in the living 
standards and purchasing power of working people around the 
world.
    This will require constructive engagements with a number of 
international institutions. In April 2010, G-20 labor ministers 
will meet in Washington, DC, to lay out a roadmap for 
addressing the job crisis globally. This is a critically 
important meeting that deserves serious attention by U.S. 
policymakers. Internationally, trade unions are calling on the 
G-20 to address external account, financial and social 
imbalances with particular emphasis on adopting strong social 
protection measures.
    Unions are also calling for a regular and meaningful 
consultations as the G-20 continues its work on adopting and 
promoting policy responses to the jobs crisis. We also urge the 
inclusion of the ILO as an essential institution in formulating 
and coordinating global policy responses. Finally, but not 
least, the U.S. must give serious consideration to the 
ratification of core ILO conventions. To date, as was pointed 
out earlier, the U.S. has only ratified two of the eight that 
are considered core conventions.
    By doing so, the U.S. will posses a far greater authority 
on the world stage, particularly on matters of labor and trade. 
An important first step would be the ratification of Convention 
111 of 1958, a discrimination employment and occupation 
convention, and Convention 100 of 1951, the equal remuneration 
convention. As a nation, workers have struggled long and hard 
to combat discrimination in all of its forms, including 
discrimination in hiring, employment and conditions of work.
    This is a step that is long overdue. We must join the great 
majority of nations in expressing our unqualified condemnation 
of such practices and committing ourselves to ensure that no 
U.S. worker suffers discrimination in any form on the job. 
Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Lucy 
follows:]<greek-l>William Lucy deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, Mr. Lucy, and now I want to turn 
to Dr. Athreya.

     STATEMENT OF BAMA ATHREYA, PH.D., EXECUTIVE DIRECTOR, 
                INTERNATIONAL LABOR RIGHTS FORUM

    Ms. Athreya. Thank you very much, Mr. Carnahan, Mr. 
Sherman, and members of the committee for the opportunity to 
present our testimony today. I would like with your permission 
to summarize the written statement and to submit the full 
written statement for the record.
    Mr. Carnahan. Without objection, proceed.
    Ms. Athreya. Okay. I would like to start then this 
testimony by acknowledging and calling attention to the 21 
garment factory workers in Bangladesh who perished tragically 
in a factory fire just 2 weeks ago. They were locked in, unable 
to escape from the factory when it caught on fire. That factory 
was producing garments for export to the U.S. and world 
markets, and this was the second time that factory had caught 
fire within 6 months.
    I note that Bangladesh received $74 million in U.S. foreign 
direct assistance just last year and received nearly $1 billion 
in foreign direct assistance since 2001. It raises fundamental 
questions for us as do other cases we describe as to whether 
U.S. trade and development policies as currently implemented 
really serve the development goals for which they were 
designed. What I would like to do in this testimony is touch on 
two programs.
    One is a trade preference program, the Generalized System 
of Preferences. The other is a development program, the 
Millennium Challenge Corporation and ask in both cases whether 
the congressional intent in the legislative language that 
designed these programs is really being fulfilled by the 
agencies that are tasked with their implementation. I think as 
you will see from our cases, very often that intent is not 
fulfilled.
    In the case of GSP and trade preferences, Congress was 
fairly clear in stating that it envisioned these programs to 
promote trade as an effective way of promoting broad-based, 
sustainable and equitable economic development. We understand 
that language to mean that it is providing decent jobs for 
people around the world, and that is the intent of the program. 
That does not however seem to be in practice the way the 
programs have played out in countries like Bangladesh.
    We do believe, and again it is just a fundamental statement 
on development and the need for trade and development to be 
linked that growth of our markets, U.S. markets, must now be 
fueled by rising incomes in the developing world, the enormous 
numbers of workers in China, India, Mexico, Brazil and sub-
Saharan Africa. In these workers can obtain decent wages and 
have some disposable income, this will increase global demand 
and create jobs for workers everywhere, including in the United 
States.
    Where in rare instances we have seen clear linkage between 
labor rights and trade preference programs, trade access, such 
as in Cambodia, we have in fact seen the prospect of workers 
reaching a livable wage. I find it very interesting that in all 
my reading of literature on export-lead development as an 
instrument of promoting better livelihoods and truly fostering 
development in different countries, Cambodia is so often cited 
as a case.
    Economists cite the fact that Cambodian workers now make 
$70 to $90 a month in the garment sector, but usually fail to 
note the existence in that country of a program that precisely 
tries to link carefully the need to increase labor rights 
protections with trade access. More often in the Generalized 
Systems of Preferences programs was amended in 1984 to include 
labor standards, but those labor provisions and their 
application has been very poor and wrought with political 
considerations.
    That was in 1984 as I said. As early as 1990, over 20 human 
rights organizations and labor unions had submitted labor 
rights petitions to USTR under that trade preference program 
showing in case after the case that the worker provisions were 
not being upheld and that the U.S. agencies tasked with their 
implementation were failing to act. In 1990, those groups 
collectively sued the U.S. Government for the systematic 
failure to enforce the mandatory, congressionally mandated 
language of worker rights in the GSP.
    The organization sought a preliminary injunction requiring 
the GSP committee to conduct an immediate review at that time 
of Malaysia alleging that the then U.S. trade representative, 
Carla Hills, was continuing to extend Malaysia's trade benefits 
even after finding clearly that Malaysia was in fact violating 
worker rights. As similar case moving now into the 1990s, and 
one which I had occasion to witness firsthand was filed by 
Human Rights Watch and the International Labor Rights Forum 
against Indonesia again for violations of freedom of 
association.
    I happened to be a State Department officer at the time 
working in U.S. Embassy Jakarta, and I witnessed firsthand the 
careful calculation of our Government in deciding how to weigh 
the labor rights considerations vis-a-vis overall economic 
considerations in Indonesia. To cut a long story short, there 
was no dispute that Indonesia was in serious violation of 
worker rights and particularly the right to organize. However, 
the Indonesia petition was suspended in 1994 despite that year 
the arrest and detention of a major labor leader, Muchtar 
Pakpahan, in Indonesia on the eve of a visit by President 
Clinton to Indonesia as part of the APEC, Asia Pacific Economic 
Cooperation, meetings.
    Fast forward now to this decade, and I have to say we at 
ILRF have not seen any significant change in the extent to 
which worker rights criteria are the deciding factor in these 
cases. Most recently, we have a pending petition against the 
country of Uzbekistan, and I personally have visited 
Uzbekistan, traveled to the cotton fields during the cotton 
harvest season and seen fields full of schoolchildren, 12- and 
13-year-olds being pulled from their classrooms with their 
teachers and compelled, forced to harvest cotton.
    Again, there has been no dispute and indeed not even any 
response from the Government of Uzbekistan to deny the worker 
rights claims in this petition. Why then 3 years later is this 
petition still pending. I would like to actually cite from a 
recent letter from several members of the House Ways and Means 
Committee,

        ``Despite the fact that the Government of Uzbekistan 
        has never responded to the allegations in the ILRF 
        petition, and that information indicating the 
        persistence of labor exploitation was filed in 2008 and 
        2009, the USTR has yet to issue a decision on this 
        petition.
          ``The merits of the petition are clear, well 
        documented and have never been challenged by the 
        Government of Uzbekistan or any other respondent. The 
        failure of the USTR to act on the merits of this 
        petition by revoking Uzbekistan's trade privileges 
        raises troubling questions about the integrity and 
        effectiveness of the review process.''

Let me move now to the Millennium Challenge Corporation. Now, 
spotty is this history I have described on GSP has been, it 
actually has been better than the work of the Millennium 
Challenge Corporation again to enforce congressionally mandated 
language on worker rights.
    When Congress in 2004 created the Millennium Challenge 
Corporation, it required any country that wanted to qualify for 
those taxpayer funded development funds to demonstrate 
commitment to 12 core criteria, and one of the criteria 
Congress identified is whether a country is promoting economic 
freedom, and it particularly states, the language states, and I 
am quoting, ``including a demonstrated commitment to economic 
policies that respect worker rights, including the right to 
form labor unions.''
    Mr. Carnahan. Doctor, if you could yield 1 second? I am 
going to ask you just to wrap up because we are close on time.
    Ms. Athreya. Sure. So as our written testimony details, the 
MCC does not effectively evaluate whether of its grantees or 
any of the countries declared eligible for this assistance are 
in fact violating worker rights. To cite just two cases 
briefly, the Philippines, which is still the subject of a GSP 
review for endemic impunity for violence against trade 
unionists and Colombia, a country which has already been 
identified in comments by this committee as a place where there 
is long-standing impunity for violence against trade unionists, 
were both declared MCC eligible in 2008 and 2009.
    The fact that such countries can be declared eligible even 
in the face of clear and persistent violations of worker rights 
is an indication that this language is simply not being 
implemented by the MCC. To summarize and conclude, we believe 
that reforms are needed to both the GSP and the MCC. We detail 
specific recommendations for those reforms in our written 
testimony, and I thank this committee for its time and 
attention to this very much needed topic.
    [The prepared statement of Ms. Athreya 
follows:]<greek-l>Bama Athreya deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you, Doctor, and next I am going to 
turn to Mr. John Murphy with the U.S. Chamber.

      STATEMENT OF MR. JOHN G. MURPHY, VICE PRESIDENT OF 
        INTERNATIONAL AFFAIRS, U.S. CHAMBER OF COMMERCE

    Mr. Murphy. Chairman Carnahan, Chairman Sherman, Ranking 
Member Royce, I greatly appreciate the opportunity to appear 
before this committee to discuss the important topics here 
today. No priority facing our nation is more important than 
putting Americans back to work. Nearly 10 percent of the 
workforce is unemployed. When President Obama delivered his 
State of the Union address in January, the U.S. Chamber hailed 
his call for a national goal to double exports within 5 years. 
Doing so will create at least a million new jobs the President 
said.
    Today's discussion of international economic policy and 
workers rights should be viewed in part through the prism of 
this practical and achievable goal. Already, more than 50 
million American workers are employed by companies that benefit 
from exports according to the Department of the Treasury. One 
in five manufacturing jobs depends on exports and one in every 
three acres on American farms is planted for export markets.
    Whether businesses are large or small, studies show that 
firms that export tend to grow faster, hire more and pay better 
wages than those that don't. At the same time, the IMF 
forecasts that 87 percent of world growth over the next 5 years 
will take place outside the United States. In short, we cannot 
reach our full potential for generating jobs without selling 
more goods and services in these global markets. The historical 
record suggests we can reach President Obama's goal of doubling 
U.S. exports within 5 years, but it won't be easy.
    Standing in our way is a complex array of foreign barriers 
to American exports. According to the World Economic Forum's 
annual Global Enabling Trade Report, U.S. exporters face some 
of the highest tariffs and non-tariff barriers in the world. 
Last year, America ranked a disastrous 114th out of 121 
economies in terms of tariffs faced by our exports overseas. In 
other words, American exporters faced tariffs that are higher 
than nearly all our trade competitors.
    The only way the U.S. Government has ever enticed a foreign 
government to open its market to American goods and services is 
by negotiating agreements for their elimination on a reciprocal 
basis as in a free trade agreement. Fundamentally, these 
agreements are about making trade fair. The U.S. market is 
largely open, but other countries continue to slap tariffs on 
U.S. exports that are often 10 times higher.
    Now, the business community does not suggest that we 
abandon our values including respect for the rights of workers 
when we negotiate trade accords, but we don't have to. USFTAs 
have evolved over the years to address labor concerns in 
increasingly sophisticated way. This reached a new stage when 
congressional leaders on May 10, 2007, reached a bipartisan 
accord on a new approach to labor and environmental issues in 
trade agreements.
    This accord led to changes in the text of pending trade 
accords with Peru, Colombia, Panama and South Korea. It paved 
the way for congressional approval of the US Peru FTA in late 
2007 with very broad bipartisan support. Under the agreement, 
the United States and Peru agreed to uphold the internationally 
accepted labor rights articulated in the 1998 ILO declaration 
on fundamental principals and rights of work. These obligations 
are subject to the same dispute settlement and enforcement 
provisions as the agreements' purely commercial provisions.
    Now, while it is not appropriate for unilateral preference 
programs or for bilateral investment treaties, the May 10 trade 
deal represents an elegant compromise for addressing labor 
considerations and FTAs, and it has attracted bipartisan 
support on that basis. The 1998 ILO declaration is a 
convenience reference point because it represents a consensus 
that has been embraced by governments, organized labor and 
employers alike. By contrast, the United States as has been 
noted here today is a party to only two of the eight ILO core 
conventions.
    Many Members of Congress and representatives of the 
business community would view including those ILO core 
conventions in future FTAs as an effort to rewrite U.S. labor 
law through a trade agreement. The business community is 
dismayed that the May 10 trade agreement has failed to advance 
a bipartisan trade agenda. Just weeks after they applauded the 
agreement for realizing long-sought goals relating to labor 
rights, the Democratic leadership of the House of 
Representatives announced that they would oppose the ``flawed'' 
trade agreements with South Korea and Colombia, and last May 
they did the same with Panama.
    The Obama administration has indicated repeatedly that it 
hopes to secure congressional approval of the three pending 
agreements, but we are still waiting for action. The cost of 
this delay may be high. The U.S. Chamber recently issued a 
study which found that the United States could suffer a loss of 
more than 380,000 jobs if it fails to implement its pending 
trade agreements with Colombia and Korea while the European 
Union and Canada move ahead with their own agreements with the 
two countries. Those agreements are expected to be in force 
within a year.
    The WTO reports that there are more than 100 FTAs currently 
under negotiation among our trading partners. The United States 
is participating in just one of these. If we are to reach 
President Obama's goal of doubling exports, the administration 
and Congress need to shift the U.S. trade agenda from defense 
to offense. On trade, if we stand still, we fall behind. We 
urge Congress and the Obama administration to seek a more 
pragmatic trade policy that opens foreign markets, boosts 
exports and creates jobs.
    In doing so, we need not abandon our values, a bipartisan 
approach for addressing labor principals in trade agreements 
was achieved on May, 10, 2007, and it should be seized with 
both hands. Only by doing so can we take advantage of the 
opportunities trade presents for job creation. Thank you very 
much.
    [The prepared statement of Mr. Murphy 
follows:]<greek-l>John Murphy deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Sherman [presiding]. Thank you. The definition of 
insanity is to keep doing the same thing that failed and expect 
it to succeed. We signed all these free trade agreements, and 
you say markets are open to us. Maybe tariffs are reduced, but 
tariffs are only what is published. You mention non-tariff 
barriers. You weren't here for the hearing we had this morning 
where we saw the non-tariff barriers. The United States is a 
country with the rule of law, so if we want to prevent American 
consumers and business from buying foreign products, we pass a 
published law. When countries get us to sign treaties that 
repeal those laws, they have access to our markets.
    Say you are in China. You are thinking of importing 
American products. You get a call from a commandant who says 
Mr. Wong, you don't want to import those American products. We 
know you are well educated, hate to think you need re-
education. That is not a provable violation of any free trade 
agreement because you can't know about it, so you continue on 
behalf of the Chamber to argue for agreements where the 
enforcement against the United States is absolute since the 
only thing that matters in the United States is law, and the 
enforcement in China and so many other countries is illusory 
since we get them to change their written laws, and they are 
not countries that follow written laws.
    You tell us that we are going to get more jobs by opening 
markets, and your only suggestion for opening markets is to 
sign the same free trade agreements that have opened our 
markets and not opened theirs. Then, you tell us that it would 
be a shame to, by treaty, change our labor laws when the 
Chamber has again and again demanded that we use treaties to 
change our environmental laws, our banking laws and our 
consumer protection laws. Apparently, the only laws we 
shouldn't change are those that benefit Wall Street and Wal-
Mart.
    Now, the Chamber took a phenomenally different view when it 
came to H.R. 1318. That bill called for duty-free treatment for 
goods coming from parts of Afghanistan and Pakistan, and the 
reason the Chamber opposed that is because it entitled the 
Department of Labor to contract with others for firm-level 
inspections. In other words, you are for open markets and even 
labor standards as long as there is no enforcement of the labor 
standards with firm-level inspections, and in your statements 
on the bill you said that ``business representatives,'' also 
known as sweatshop operators, ``found the provisions 
unworkable,'' which is to say effective.
    On what basis did the Chamber make the decision to oppose 
H.R. 1318, and will you oppose any agreement that provides for 
effective firm-level inspections with regard to consumer, labor 
and environmental standards?
    Mr. Murphy. The Chamber strongly believes that creating new 
trade opportunities in Afghanistan and in northwestern Pakistan 
is part of the solution for what ails that part of the world. 
However, we think that the bills that have been under 
discussion are flawed in different ways. As you mentioned, H.R. 
1318 would create an enterprise-specific audit process that 
many in the business community that have worked in that part of 
the world regard as unworkable.
    There was an initial version of the bill that counted on 
ILO inspectors to do that, but when the ILO informed them that 
yes, this is one of the most dangerous and lawless parts of the 
world, and they didn't want to do it, the proposal was amended 
to move to this enterprise-specific audit process involving 
possibly NGOs. I think the business----
    Mr. Sherman. So you are opposed to firm-level inspections 
carried out by people with the courage to do it in a difficult 
part of the world because you are only in favor of lower 
tariffs when there aren't firm-level inspections?
    Mr. Murphy. I think that we need to recognize that there 
isn't a one-size-fits-all solution here. The program in 
Cambodia and in Haiti, these have potential because most of the 
apparel manufacturing facilities are located in a very 
geographically compact area.
    Mr. Sherman. Sir, these NGOs have the courage to do the 
inspections. Why are you against the inspections?
    Mr. Murphy. We strongly question the ability that they 
would have to carry out inspections. We actually opposed the 
bill on other grounds as well.
    Mr. Sherman. Wait, wait. Wait a minute. Okay. You are 
opposed to the inspections because it might be difficult to do 
the inspections. Why would you do that? Either you get in the 
inspections or you get what you say you want, which is a bill 
with no inspections. You don't even want the possibility that 
somebody could do the inspections, and your theory is well, 
maybe they can't, so let us make sure they don't.
    Mr. Murphy. Mr. Chairman, we are not in support of 
legislation that we believe will not do what it is intended to 
do, namely to create real-world trade opportunities. The 
legislation as drafted excludes all of the products in which 
Pakistan and Afghanistan have a particular competitive 
advantage. It limits the benefits to very----
    Mr. Sherman. Sir, your stated opposition is because you 
oppose the inspections. You have not said that you will support 
the bill if the number of products covered by the bill is 
expanded. Support for labor standards only when they are 
definitely not enforced is an interesting approach, and my time 
has expired. I recognize Mr. Royce.
    Mr. Royce. I remember the argument over the way that bill 
was crafted, and frankly, Mr. Murphy, if I recall, the 
legislation by protectionist interest was to make certain that 
we did not have the types of cotton pants that are manufactured 
in Pakistan coming into the United States. That is the debate I 
remember here, and that is the opposition to it I remember, but 
basically these individuals who produce these products are in a 
war zone. You are talking about the northwest frontier.
    I go out there every year to Pakistan, and I am familiar 
with just how difficult it is to get around in that area, but 
the question is, or to me it was, whether or not we were going 
to offer some kind of employment and allow those goods to come 
into the U.S. market or whether we are going to block it, and 
the blocking I saw from the provision as it originally was 
advanced, which was to allow these cotton trousers and other 
things that are actually made in Pakistan to come into our 
market, they effectively removed that from the bill, so at that 
point, no. There isn't a lot of support for the legislation.
    Let me ask a couple of other questions, and one of them 
goes to, Mr. Murphy, you testified that the U.S. is running a 
trade surplus in manufactured goods, agricultural products and 
services will all 17 countries with which we have an FTA, so 
are these FTA agreements necessarily bad for American workers?
    Mr. Murphy. Congressman Royce, I think you have touched 
upon one of the greatest secrets in U.S. trade policy that in 
fact U.S. free trade agreements have this remarkable record for 
boosting U.S. exports. As you say, in manufactured goods, in 
services, in agricultural products, when we look at our 17 FTA 
partners as a group, we are running a significant surplus with 
them. The one exception with those 17 countries is in oil and 
gas where we import large amounts of oil, particularly from 
Canada. That is not a result of trade policy though. That is a 
result of geology.
    I would further add that with regard to our bilateral 
investment treaties, those 40 countries we also have 
approximately a $10 billion trade surplus with them. It stands 
to reason though in a world where on average foreign barriers 
are high and ours are low, when we enter into a trade agreement 
and brush those barriers aside, imperfectly as it may be, 
American workers are able to get their goods in there and 
compete and win, and that is why we have seen these remarkable 
results.
    Just one last point, the FTA partners that we have, those 
17 countries represent just 7 percent of world GDP outside the 
U.S., but they buy 40 percent of our exports. FTAs make big 
markets even out of small economies.
    Mr. Royce. You also testified that U.S. companies face 
among the highest tariffs of the world. That disadvantage is 
only worsening as the U.S. sits on the sidelines while other 
nations negotiate trade agreements, so just how bad is it for 
U.S. businesses, and I would ask if you could discuss specific 
examples of U.S. companies losing sales?
    Mr. Murphy. Absolutely. It is a serious problem. In fact, 
about 1 hour ago, the Canada Colombia Free Trade Agreement was 
introduced in the House of Commons in Ottawa. If that agreement 
goes into effect, if their recently concluded just a week ago 
EU Colombia Free Trade Agreement goes into effect, if the EU 
Korea FTA agreement goes into effect, we are going to see our 
European and Canadian competitors with something like a 10 
percentage point cost advantage.
    Companies like Caterpillar, which Colombia for them is the 
10th largest export market in the world, and the signal that 
sends is that they are going to be at a disadvantage, but it 
isn't just large companies. It is also small companies. The 
Chamber on behalf of our hundreds of thousands of small 
business members, we profile small companies that have 
benefitted from exports through a series of what we call Faces 
of Trade publications. This is a collection of profiles of 
companies that have benefitted from exporting to Colombia.
    I look at companies like Quality Float Works of Illinois, 
where the CEO tells us that they are absolutely losing out in 
markets like Colombia and Brazil to foreign competitors due to 
tariff differences.
    Mr. Royce. And lastly, the bipartisan labor agreement of 
May 2007 was worked into the trade agreements with Peru and 
Panama and Colombia, South Korea, and this action proved the 
way for approval, this is what advanced the approval of the 
Peru trade agreement, and it was expect that the others would 
be approved too, yet they are stalled. Could you tell me 
quickly what happened?
    Mr. Murphy. Well, we are still trying to figure that out, 
and it is particularly frustrating with regard to Colombia, and 
I welcome an opportunity to comment on that briefly here today. 
Many of the statistics we have been hearing today I believe 
approximately 10 years out of date. Last year, the homicide 
rate in the United States was nearly three times higher than 
the homicide rate among Colombian trade unionists. A resident 
of the District of Columbia, where I live, is seven----
    Mr. Sherman. Excuse me. The gentleman's time has expired. 
Let me also correct the record. You can reach the conclusions 
that Mr. Murphy reaches only if you feel that our MFN agreement 
with China is not a trade agreement, only if you ignore 
increases in imports that go along with increases in exports. 
You have to really bend it to get where you are going. In any 
case, it is now time to recognize the vice chair of our 
subcommittee, Mr. Scott.
    Mr. Scott. Thank you very much, Chairman. I would like to 
get each of your comments on this, Mr. Murphy, Ms. Athreya and 
Mr. Lucy. An overwhelming majority of Americans favor the 
United States requiring compliance with international labor 
standards as part of international trade agreements. A survey 
by the Chicago Council on Global Affairs and the World Public 
Opinion Organization found that nine in 10 Americans support 
requirements for countries that sign trade agreements to meet 
minimum labor and environmental standards. What do each of you 
think of this, which is the opinion of the American people? Mr. 
Murphy, then Dr. Athreya and then Mr. Lucy.
    Mr. Murphy. I will be brief. I think that underscores the 
vitality of the compromise that was reached on May 10, 2007, in 
which a practical basis was found as a reference in the 1998 
ILO declaration, and Congress has a fantastic opportunity to 
move forward on trade on that basis.
    Mr. Scott. Okay. But you do agree with these, accept these? 
Do you know feel that this represents the true thinking of the 
American people?
    Mr. Murphy. Well, speaking for the Chamber on May 10, 2007, 
we jumped up and down and cheered.
    Mr. Scott. All right. Okay. Dr. Athreya?
    Ms. Athreya. We believe these rights are fundamental human 
rights, and it is consistent with all of the conversations I 
have ever had with people out there that they believe that we 
should respect these rights all over the world. I believe 
Congress thinks this, too. It is in our trade law, and it is in 
our development law. We would love to see it enforced.
    Mr. Scott. Okay. And, Mr. Lucy?
    Mr. Lucy. I can't help but agree with what Dr. Athreya 
said. I mean, the American people recognize the unfairness and 
lack of abilities of a people's substandard ways. America 
stands for something. It stands for something. It is why we 
remain the envy of the world. It is why regardless of all of 
our faults, and we have them, regardless of all of the 
imperfections of America, America stands for constantly 
reaching for that standard, and that is what is at stake here, 
and that is why if we let down that standard and we enter into 
trade agreements that don't hold that standard, we hurt 
ourselves.
    I believe we can get to that point with Colombia, with 
others, but, Mr. Murphy, you would accept going into trade 
agreements, and I might add that you are looking at someone who 
was down there, 2,700 is a lot stretched over 20 years as you 
have said, but 47 were killed in the year that I went down. As 
a matter of fact, one life is too many lives lost, the pattern, 
and there is a reason why the issue is impunity. Now, you and 
I, no one can do anything.
    The government says we can't do anything about somebody 
shooting or killing somebody else. That happens. Murder, it 
happens. We try to prevent it, but it happens, but the one 
thing the government can do is go through the process of 
getting some results and convictions and searching and have a 
system where they don't tolerate it. That is a problem with 
Colombia.
    It is indeed the killings and that, but it is a government 
that has a record of complicity in some of them and a dragging 
of the feet of not having the judicial system in place or the 
priority in place to adjudicate these cases and bring some 
people to trial. One or two that have got, they have even let 
go, so I just wanted to make that point as plain as I could 
because I think that we have a standard in this country. We 
have a standard that is held high in the world, and we can't 
lower that standard. I see my time it out. I don't want to go 
to my question. Maybe I will have another round. Thank you.
    Mr. Carnahan. Thank you all, and I apologize. I had to step 
out for just a moment but wanted to ask a couple of questions. 
One of the issues that I was concerned about particularly in 
this global economic crisis that it has created an even greater 
reliance on sub and sub-subcontracted production that hires 
workers under short-term contracts in often exploitative 
conditions.
    In your estimation, to what extent are U.S. companies 
making real efforts to effectively monitor their supply chains 
and take actions when necessary, and what more can or should be 
done to ensure that multinational companies source goods and 
services that are made under decent working conditions, and let 
me start with Mr. Lucy.
    Mr. Lucy. Mr. Chairman, let me give you an experience. In 
visiting with migrant workers in Jordan about a year or so ago, 
and we have an agreement with Jordan, it is supposed to be a 
fairly good model, but we found workers there who have had 
their passports taken, their work permits taken and forced to 
work and live under some of the most dreadful conditions. We 
don't see the American corporations who benefit from those 
products doing a whole lot to change those conditions, and we 
strongly support the agreement, but we also support fair 
treatment of workers under that agreement.
    Mr. Carnahan [presiding]. How do you think we can better 
shine a light on those kind of practices when they happen?
    Mr. Lucy. I am sorry. I missed your----
    Mr. Carnahan. How do you think we can better shine a light 
on those practices when they are found?
    Mr. Lucy. I think effective reporting by the responsible 
agencies of the U.S. Government and not pull punches, but state 
the situation as it exists, just as it was asked with regards 
to Mr. Posner earlier. The State Department and Labor 
Department ought to be clear and concise in their reporting on 
incidents such as this.
    Mr. Carnahan. All right. Doctor?
    Ms. Athreya. Thank you very much for the question. Since 
the issue of impunity has arisen in the comments of this 
committee, I would like to particularly point out that some of 
the companies that directly benefit from trade access in places 
like Colombia and the Philippines, which I also mentioned in my 
testimony, are reported to directly aid and abet violence 
against trade unionists. We can mention a case against Dole 
Corporation in Colombia right now.
    We can mention cases involving both Dole and Nestle in the 
Philippines and the aiding and abetting of torture, 
disappearance, murder of trade union leaders and community 
members as well to clear out their land to get access for 
planing agricultural products. We believe strongly that it is 
important that these companies that benefit directly from 
increased access also be held directly accountable for 
maintaining all of the labor rights in their operations in 
these countries and that much more is needed to strengthen the 
ability of these programs to look deeply at who is receiving 
the benefits and whether those companies and those industries 
are actually upholding labor rights. Thank you.
    Mr. Carnahan. Mr. Murphy?
    Mr. Murphy. I think we live in a day and age when your 
reputation is everything whether you are a Member of Congress 
or a company, and that is why companies that operate around the 
world often go to extraordinary lengths to vet their own supply 
chains, to have their own solutions to inspections and finding 
ways to make sure that they are living really up to the highest 
standards of respect for labor rights. I see that all around 
the world. I have traveled extensively in places like Honduras 
and seen in the apparel operations there how this is a priority 
for those industries, and that is why working for an American 
company is usually a big step up over many of the economic 
opportunities there.
    I think that is the reason why the business community as I 
have mentioned supported using the 1998 ILO declaration as a 
reference point in the context of free trade agreements.
    Mr. Carnahan. Just to follow that up, to the extent that I 
take it you think most companies, and understandably so, would 
be concerned about their reputation to being sure those supply 
chains and standards are done correctly, we hear about a lot of 
the extreme examples, obviously. What do you think is the best 
strategy in dealing with those?
    Mr. Murphy. In dealing with the extreme examples?
    Mr. Carnahan. Yes.
    Mr. Murphy. I think the business community does agree that 
there is an important role that is played by U.S. 
administration programs, such as the ones we heard about in the 
first panel. Those things are not generally in question. I 
think when you see the business community establishing its own 
vigilance programs to fill in a void, I think that is a sign 
that many in the business community would like to see 
government have a role there that it is currently not 
fulfilling.
    Mr. Lucy. Mr. Chairman?
    Mr. Carnahan. Yes, Mr. Lucy?
    Mr. Lucy. In our written testimony, Mr. Chairman, we spoke 
to the need for being able to do more. Certainly, ILO 
Convention No. 81 provides a function of inspection which would 
take care or certainly raise an earlier flag on a lot of these 
situations, so the adoption of that convention will certainly 
be a positive step in the right direction.
    Mr. Carnahan. That is it for my questions. I want to ask if 
any others have any followup? I am going to allow my chairman 
to go first. Chairman Sherman?
    Mr. Sherman. Yes. Just to set the record straight, the idea 
that it is no more dangerous to be a union activist in Colombia 
than a citizen of the Unites State requires the most bizarre 
math. Five hundred union activists have been brutally murdered 
during the Uribe presidency. Now, you could say that is a tiny 
risk if you divide that 500, the entire population of Colombia 
or all working people in Colombia, maybe even all labor union 
members of Colombia, but it is not like the 500 people that 
were killed were just randomly selected union members or 
working people.
    These were the folks who were the key to organizing the 
union. These were among a group of 5,000 or 10,000 people who 
were the most active in trying to bring a labor movement to 
Colombia and the death rate among them massively exceeds any of 
the statistics that have been put forward by the Chamber of 
Commerce. Being a CPA is an occupational hazard. You get 
numbers, and you actually look at them, and sometimes it is a 
little bizarre.
    Mr. Lucy, thanks for being here. I look forward to working 
with you to fight for labor rights around the world. I do have 
one question. Since 2001, March, which was the peak of the 
business cycle most recently, the United States has lost 3 
million manufacturing jobs, and of course it is manufacturing 
that is most affected by international trade agreements. So far 
they haven't figured out a way to contract out my job, but 
manufacturing jobs are affected by international trade, and we 
have seen this 17.4 percent decline.
    To what extent are these losses due to differing labor 
standards in our trade partners, and what is the impact of 
these free trade agreements on labor standards both 
domestically and abroad?
    Mr. Lucy. I think a substantial number of those jobs, Mr. 
Chairman, can be directly attributed to the trade agreements as 
almost incentives to remove good-paying industrial and 
manufacturing jobs offshore. The 3 million jobs that are gone 
was substantially the foundation of our middle class. They are 
gone. They will not be back unless we find some magical way of 
creating an industrial policy that will speak to our domestic 
needs.
    We see cities around the country that were related to 
industry and manufacturing, think of Detroit, Cleveland and 
many others directly affected by NAFTA, directed affected by 
some of these others, so the American worker and the American 
middle class has suffered tremendously as a result of these 
trade agreements.
    Mr. Sherman. I thank you for your answer, and I look 
forward to a trade policy that is in the interests of the 
American working family rather than a policy dominated for the 
interests of Wall Street and Wal-Mart, and with that, I yield 
back.
    Mr. Carnahan. Thank you. Now, Mr. Scott, for followup 
questions?
    Mr. Scott. Yes. I would like to just ask each of you to 
comment on the International Labor Organization's core 
conventions concerning collective bargaining are Conventions 87 
and 88. The U.S. has not yet ratified these conventions, nor 
has it submitted them for review by the tripartite, by the 
administration, Labor and business representatives, so the 
question I have is taking just simply Colombia, how can the 
U.S. leadership, particularly the forces that I have sitting 
here before me, each of you represents a unique and separate 
constituency to this.
    Mr. Murphy, business. You are with the International Labor 
Organization. You are with the American labor movement, and I 
am wondering where can particularly, Mr. Murphy, the Chamber of 
Commerce, and the labor movement in America, how can you work 
together to put pressure on Colombia? I know the value of a 
Colombia trade agreement. I know the importance of trade. There 
is no question about it.
    It is clear that if we enter trade agreements with a poison 
pill in it as we have done to a degree with NAFTA and others 
where we have suffered, where we have seen jobs go where they 
shouldn't be, multi-national corporations who operate all 
around the world certainly want that, but it hurts the American 
worker here at home. If we take the Colombia situation, how can 
labor and business work together to put pressure on Colombia to 
straighten up its act?
    I think that as long as there is a dichotomy of thought 
here in the United States in terms of our trade policy, some of 
these countries don't move as fast as they should, and I am 
saying especially on getting the infrastructure in place to 
make sure the impunity that is going on in Columbia, that can 
stop. That can be put to place, but I just wanted to know, and 
I thought the question might be appropriate. Where can we work 
together here? Where can you, Mr. Murphy, work with Mr. Lucy 
and Dr. Athreya? I know I have butchered your name. I am sorry. 
Is it Athreya?
    Ms. Athreya. You were perfect. Thank you.
    Mr. Scott. Thank you so much. Where is there we can work 
together on this? Is there some way we can work because I tell 
you there is a split opinion in this Congress on moving forward 
on these trade agreements. Central to it is the labor rights, 
the treatments of the trade unions there and this impunity 
issue. Is there some ground where particular Mr. Murphy, Mr. 
Lucy, are there areas that can be worked together with some 
united force in this?
    Mr. Murphy. Well, 50 years ago when George Meany was the 
head of the AFL-CIO, he strongly supported the interests of the 
American worker to pursue international trade. He opposed 
issues like Buy American and argued with people across the 
country that the American workers' destiny was to be making 
things to sell around the globe. Unfortunately, I think that we 
have come a distance, and there is a strong difference of 
opinion here, and if you are talking about Colombia 
specifically, I think that this place to start is really to 
look at the facts on the ground there.
    I strongly disagree with the facts as they have been 
presented by some in this hearing here today. In the past few 
years, there has been 300 convictions of priority cases 
identified by trade unions in Colombia, convictions that have 
happened there. Labor unions in Colombia have grown by more 
than 50 percent during the Uribe administration to more than 
1.5 million, and you don't have to be an actuary to do the math 
that 29 murders of trade unionists last year among 1.5 million 
is a murder rate that is 1/17 that of the District of Columbia.
    We have to establish the facts first and move past the 
rhetoric of 10 years ago and see Colombia for what it is today.
    Mr. Sherman. If you really think your likelihood of being 
killed by brutal anti-labor forces is equal whether you are a 
rank and file member or whether you are an organizer, if you 
live in that kind of fairy tale land, then it is not dangerous 
to be an organizer in Colombia. When you use as your 
denominator something other than the number of organizers, you 
use a phony denominator in calculating your murder rate, and 
you can keep repeating the same number over and over again, but 
if you use a phony denominator, you get a phony rate. I yield 
back to the gentleman.
    Mr. Scott. Yes, and here is the fact, and I don't think you 
will argue with it, in more than 95 percent of the killings, 
there has been no convictions, and the killers remain free, and 
this is from Human Rights Watch World Report 2010 Colombia, 20 
January 2010. This is a part of the problem. I mean, that is a 
stark situation down there. The business community of this 
country wields an awesome amount of power.
    There is a need for us to try to get this free trade 
agreement there. There is all kinds of reasons. We need it. I 
have been down there. I know we need it, but we have got to 
resolve this human rights and labor problem, and I think that 
the business community could join with labor and unite and put 
pressure on the Colombia Government to really resolve this. I 
think we could move forward with getting a trade agreement 
there that we would be proud of, but under these circumstances 
where these people have been killed, assassinated, these trade 
unionists, and nothing is being done about it.
    There is a record of complicity with the Uribe government 
that is real, and 95 percent of the people are walking free who 
have done the killing, there is just no way we can put that 
there, but I think that if we could find a way to work together 
here, that is what I am after. You can throw up this fact, you 
could throw up that, but the fact is a lot of people are 
getting killed, and they are not being paid for. This cannot go 
on, and how do we move together to resolve it? Is there a 
willingness on business to work with labor to resolve this?
    Mr. Murphy. I think the Colombian Government has shown 
incredible resolve. You mention a number of more than 2,000 
murders dating back to 1988. Most of those are more than 5 or 
6, 7 years ago and took place in a period of civil war in the 
1990s. That is why the government identified in consultation 
with the Confederations of Trade Unions these priority cases, 
and they have made remarkable progress with them.
    Mr. Scott. Mr. Murphy, there have been trade unionists who 
have been killed this year. Mr. Lucy, is it possible for 
American business and American labor to work together to put 
pressure on this Colombian Government to kind of help resolve 
this issue?
    Mr. Lucy. Well, I think, Mr. Scott, history has shown that 
labor can find a way to work in any difficult situation except 
we cannot compromise on some fundamental principles. Principle 
1, workers in Colombia and all over the globe have the right to 
freedom of association. That is just fundamental. That is a 
position that the Chamber just disagrees with. Secondly, we 
have a right to collective bargaining. How else will workers 
get their share of the benefits of a society from this trade, 
developments or what have you unless they have the right to 
come together and sit across the table as equals from their 
employer.
    There is a fundamental disagreement on that point. We have 
said many, many times that we would like to see conditions set 
in that protect the interests of workers, that protect the 
environment, and there is a willingness to work on all of 
these, but we can't work where there is no acceptance of 
fundamental workers rights, and that is the freedom of 
association, a right to collectively bargain and all that goes 
with that.
    Mr. Murphy says that these killings were 10 years ago and 
therefore we ought to forget them, well 20 percent of them was 
done under the administration of Mr. Uribe. I mean, this is not 
illusions. These are real people who are trying to establish 
their position and status and in the Colombian society, and for 
that, they are assassinated, and we can't pretend that doesn't 
exist, and we have got to hold somebody accountable, and if the 
government in place refuses to pursue justice for the victims 
or their families, how do you rationalize entering into an 
arrangement with that and still say we are the leading country 
in the world in terms of human rights?
    Mr. Scott. Exactly. Thank you, Mr. Chairman, I yield back.
    Mr. Carnahan. Thank you, and I am going to just wrap up 
with one more question that I presented to the first panel. It 
is one of the things that has concerned me with regard to what 
has been termed this race to the bottom with a lot of 
manufacturing jobs that have left the U.S. They have gone south 
of our border. They have gone to Asia, and this race to the 
bottom in terms of standards for the workforce, for the 
environment, but also safety standards, and we have seen the 
problems with vehicles, with drywall, with toys, with baby 
formula.
    I think as was mentioned by one of the earlier panelists, 
there are common parallels with these product safety problems 
and with workers rights and environmental rights. I would like 
to ask each of you if you would just comment briefly about how 
you think we can incorporate that because I think that is very 
much in our interest for U.S. consumers to address these issues 
but also for U.S. businesses because it helps us with a more 
fair playing field to compete. We will start with Mr. Murphy 
and go to your left.
    Mr. Murphy. Mr. Chairman, my reaction is that in this 
worldwide economy where we are in competition every day, the 
first place we have to look to think about how we are going to 
win in that competition is inward. We have to get our own act 
together on everything from K-12 through college education. We 
have to invest more in our infrastructure, which has suffered 
in recent years. We have to think about how our global 
companies are able to compete.
    This country has some of the highest corporate tax rates in 
the world, and that creates a very negative incentive to be 
doing business in this country. We have to think about getting 
those incentives right, and if we do that right, then we will 
be in much stronger shape.
    Mr. Carnahan. If I could? I wanted to particularly address 
the issue of product safety.
    Mr. Murphy. I think in recent years there has been a 
considerable effort made on both food, phytosanitary, sanitary 
side and on product safety. I think that is a work in progress, 
but we recognize that it is very important. Having an approach 
that finds a way to weigh those risks and dedicates the 
resources that we have to mitigating those risks where they are 
has got to be the way forward. That is going to be the biggest 
bang for the buck.
    Mr. Carnahan. Dr. Athreya?
    Ms. Athreya. We are very concerned with issues of product 
safety and food safety in the developing countries where we 
work, and we find a direct corollary between the existence of 
democratic organizations for workers that have access to 
justice and the ability of those workers to blow the whistle 
when they see their management their cutting corners and 
disobeying the standards that are supposed to be applied in the 
production of these goods. The right of workers to organize and 
have a voice in the workplace is actually very fundamentally 
linked to product safety and food safety.
    Mr. Carnahan. Okay. Thank you. Mr. Lucy?
    Mr. Lucy. I think the last point the Doctor made was 
absolutely on point, but beyond that, there are existing 
conventions that deal with the issues of safety, both workers' 
safety and product safety, and the empowerment of workers with 
them able to speak to the quality of products that they 
manufacture, their ability to negotiate processes and 
procedures of doing work will obviously address some of these 
issues.
    Mr. Sherman. Will the gentleman yield?
    Mr. Carnahan. Yes.
    Mr. Sherman. I just want to set the record straight on the 
U.S. corporate tax rate. We have enormous, giant loopholes for 
corporations to exploit, particularly with regard to 
international transactions. You have got to look not at the 
nominal rate, but the effective rate of taxation, which is 
lower on our corporations now than it has been for a long, long 
time, and you cannot simply circle the nominal rate and repeat 
that over and over again as if it is an accurate reflection of 
the effective rate. I yield back.
    Mr. Carnahan. I thank the gentleman. I thank the panel for 
your patience, for your insight and for your frankness here 
today all of you. It has helped us I think get a good overview 
of this issue, and we look forward to continuing to work with 
you on these efforts. We are adjourned.
    [Whereupon, at 5:35 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Carnahan statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Reichle Statement 
                               FTR deg.__
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
